<html>
<title> - A FAIR PLAYING FIELD? INVESTIGATING BIG TECH'S IMPACT ON SMALL BUSINESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              A FAIR PLAYING FIELD? INVESTIGATING BIG 
                   TECH'S IMPACT ON SMALL BUSINESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 14, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-059
             Available via the GPO Website: www.govinfo.gov                   
                   
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-314                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                  
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     3

                               WITNESSES

Mr. Dharmesh M. Mehta, Vice President, Customer Trust and Partner 
  Support, Amazon, Seattle, WA, testifying on behalf of Amazon...     4
Ms. Erica Swanson, Head of Community Engagement, Grow with 
  Google, Google, Mountain View, CA, testifying on behalf of 
  Google.........................................................     6
Dr. Joe Kennedy, Senior Fellow, Information Technology & 
  Innovation Foundation, Washington, DC, testifying on behalf of 
  the Information Technology & Innovation Foundation.............     8
Ms. Allyson Cavaretta, Principal and Owner, Meadowmere Resort, 
  Ogunquit, ME...................................................    25
Mr. Molson Hart, CEO, Viahart Toy Co., Houston, TX...............    27
Mr. Harold Feld, Senior Vice President, Public Knowledge, 
  Washington, DC.................................................    28
Ms. Theo Prodromitis, Co-Founder and CEO, Spa Destinations, 
  Tampa, FL......................................................    29
Mr. Jake Ward, President, Connected Commerce Council, Washington, 
  DC.............................................................    31
Mr. Graham Dufault, Senior Director for Public Policy, ACT/The 
  App Association, Washington, DC................................    33

                                APPENDIX

Prepared Statements:
    Mr. Dharmesh M. Mehta, Vice President, Customer Trust and 
      Partner Support, Amazon, Seattle, WA, testifying on behalf 
      of Amazon..................................................    45
    Ms. Erica Swanson, Head of Community Engagement, Grow with 
      Google, Google, Mountain View, CA, testifying on behalf of 
      Google.....................................................    52
    Dr. Joe Kennedy, Senior Fellow, Information Technology & 
      Innovation Foundation, Washington, DC, testifying on behalf 
      of the Information Technology & Innovation Foundation......    61
    Ms. Allyson Cavaretta, Principal and Owner, Meadowmere 
      Resort, Ogunquit, ME.......................................    71
    Mr. Molson Hart, CEO, Viahart Toy Co., Houston, TX...........   105
    Mr. Harold Feld, Senior Vice President, Public Knowledge, 
      Washington, DC.............................................   107
    Ms. Theo Prodromitis, Co-Founder and CEO, Spa Destinations, 
      Tampa, FL..................................................   125
    Mr. Jake Ward, President, Connected Commerce Council, 
      Washington, DC.............................................   131
    Mr. Graham Dufault, Senior Director for Public Policy, ACT/
      The App Association, Washington, DC........................   136
Questions and Answers for the Record:
    Questions from the Small Business Committee to Mr. Dharmesh 
      M. Mehta and Answers from Mr. Dharmesh M. Mehta............   150
    Questions from the Small Business Committee to Ms. Erica 
      Swanson and Answers from Ms. Erica Swanson.................   155
    Questions from the Small Business Committee to Mr. Graham 
      Dufault and Answers from Mr. Graham Dufault................   161
Additional Material for the Record:
    Allyson Cavaretta, Principal/Owner, Meadowmere Resort, 
      Ogunquit, Maine............................................   164
    CreativeFuture...............................................   200
    John William Templeton, Executive Editor, blackmoney.com.....   246
    Molson Hart..................................................   255
    Theo Prodromitis.............................................   265
    Travel Technology Association................................   266

 
A FAIR PLAYING FIELD? INVESTIGATING BIG TECH'S IMPACT ON SMALL BUSINESS

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:08 p.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Golden, Kim, Davids, 
Evans, Schneider, Espaillat, Delgado, Craig, Chabot, Balderson, 
Hern, Hagedorn, Stauber, Joyce, and Bishop.
    Chairwoman VELAZQUEZ. The Committee will come to order.
    I want to take this opportunity to thank everyone for 
joining us today.
    I would like to start by thanking all of our witnesses for 
coming to the table today to participate in this hearing, 
including those that traveled. In particular, I want to thank 
Amazon and Google for deciding to appear today. I know that 
this was not an easy decision for your company, but I believe 
it was the right one.
    As everyone can see, we also have two empty chairs to 
demonstrate the failure of Facebook and Apple--companies that 
somehow find the means to spend millions on lobbying and hire 
dozens of executives--to find the time to be here today. Their 
failure not only impedes Congress's mission, but also speaks 
volumes about the companies' commitment to transparency and 
their very own customers.
    Thank you, Amazon and Google for being here today--and to 
Facebook and Apple--you reap what you sow.
    It is important that everyone in the room understands that 
this Committee has a tradition of being fair, and that will 
continue during this hearing.
    Earlier this year we held a hearing on how the digital 
ecosystem promotes entrepreneurship, and last year, we held an 
Amazon roundtable on Prime Day. Both events showcased the 
benefits that tech platforms provide small businesses. Today, 
we will now look at this through another lens.
    It is true that innovation and ingenuity built this 
country. In fact, one could argue that these qualities are 
uniquely American and have propelled our nation to produce the 
most successful companies and the foremost technologies. I know 
that the companies we have on this panel--and the ones we do 
not--started as an idea, in a basement or a college dorm room, 
and that entrepreneurship--the spirit that built your 
companies, is to be commended. That being said, the grip that 
big tech now holds over our daily lives and our competitive 
landscape at the same time is astounding but also concerning.
    Big tech platforms dominate search functions, the devices 
used by nearly every American, online advertising, and online 
messaging platforms. They are market leaders in cloud computing 
services to businesses and consumers, while also providing 
entertainment and other digital streaming services. Microsoft, 
Apple, Amazon, Alphabet, and Facebook are collectively worth 
over $4.3 trillion dollars. Those 5 companies comprise over 15 
percent of the total value of the S&P 500, which tracks the 
market value of the 500 largest companies listed on U.S. Stock 
Exchanges.
    To provide a little more context on the scope and reach of 
these companies, Amazon currently has approximately 50 percent 
of the U.S. ecommerce retail market. Nearly 90 percent of 
Internet searches go through Google and its subsidiary, 
YouTube, while Facebook pulled in 55 billion dollars in ad 
revenue last year. Additionally, Apple sold over 217 million 
iPhones in 2018 alone.
    The sheer size of these companies, along with pervasive 
integration of these platforms and concentration of power 
influencing online traffic, raises questions that should 
concern anyone who cares about market access, data privacy, 
small business development, entrepreneurship, and innovation.
    One only has to look to the decline in American startups to 
connect the dots. In 2006, 558,000 businesses were formed but 
the Census reported that only 414,000 businesses were started 
in 2015. There is growing anxiety--not only in the U.S. but 
around the world--that the large tech companies pose a threat 
to innovation and competition.
    When consolidation takes place in any industry and market 
power is increased, as it has in the tech industry, it is 
simply too hard for new businesses to get off the ground. Many 
of the popular products and features of these companies have 
not been developed internally. They have occurred through 
merger and acquisition, with the largest being Microsoft paying 
over $26 billion for LinkedIn. Do we want a country of 
entrepreneurs and inventors that dream of building something or 
dream of being bought by larger competitors? In my view, we 
need to reboot the startup economy.
    When small businesses do get off the ground and are able to 
succeed, we need to ensure that they are treated fairly on 
online marketplaces and that consumers can find them on search 
engines. Small businesses need certainty and transparency when 
they are operating their businesses on digital platforms so 
that they can set competitive prices and still make enough 
money to continue to grow their businesses, create jobs, and 
invest in their communities. When small firms do get into 
disputes with the powerful gatekeepers, they need a fair shot 
at resolving the problem so that they can continue to run their 
businesses.
    Finally, I think we need to be clear that in a digital 
marketplace, that every firm, and especially the Big Tech firms 
here today are desperate for our data. Our data is an economic 
asset which garners more value as one collects more of it. The 
concentration of that data in fewer and fewer firms has 
implications for small businesses.
    The Internet and digital platforms are so deeply woven into 
American lives that small firms cannot afford to be excluded 
and/or treated unfairly. Small businesses need to be protected 
by policies that offer them the certainty and transparency they 
need to make meaningful business decisions. As consumers 
continue to increase their engagement with businesses through 
digital platforms, small firms need to be sure that they can be 
found when new and existing customers are looking for their 
business. We cannot allow our economy to become one that 
stifles innovation or makes it impossible for small firms to 
compete.
    I look forward to working with my colleagues on both sides 
of the aisle to create meaningful policies that foster 
collaboration between small firms and digital platforms and 
ensure that small businesses have a fair opportunity to 
succeed.
    I now would like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman. And thank you for 
the witnesses that are here today. We understand that it is not 
always easy to answer when Congress calls but are glad that you 
have taken the time out of your busy schedules to speak with us 
today.
    The digital age has caused a revolution for small 
businesses. No more are small firms caught behind their larger 
counterparts when it comes to the availability of game-changing 
technologies to help grow and expand their businesses. Small 
firms can now utilize cutting-edge products and services to 
respond to market changes very swiftly. And with increasing 
adoption of mobile computing devices, cloud systems and on-line 
conference call technology, like Facebook, employees can 
collaborate effectively even across great distances and work 
almost anywhere.
    But perhaps the greatest benefit is the financial savings 
it affords small businesses. Increases in productivity allow 
companies to do more faster and less overhead. Not 
surprisingly, many of these digital platforms have been 
developed and marketed by large businesses such as our 
witnesses today from Amazon and Google.
    Have there been some concerns regarding privacy and 
intellectual property concerns? Of course there have. But by 
and large the development of these digital platform products 
and services from these tech giants has been a boon for the 
millions of individual small businesses that would probably 
never have existed without them.
    We are the Small Business Committee here after all, but we 
like all businesses as competition drives progress, growth, and 
economic expansion. Today's hearing is an opportunity for us to 
examine the symbiotic relationship between small firms and big 
businesses. Both need each other to continue our unprecedented 
economic expansion of the past 3 years. I think we are all 
looking forward to our discussion here this afternoon.
    Thank you, Madam Chair, for holding this hearing, and I 
yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If Committee Members have an opening statement, we would 
ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and Members get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light comes on when you begin, and the yellow 
light means there is 1 minute remaining. The red light comes on 
when you are out of time, and we ask that you stay within that 
timeframe to the best of your ability.
    I would now like to introduce our witnesses on today's 
first panel. I will take a minute to introduce each of you 
before turning it over for testimony.
    Our first witness today is Mr. Dharmesh Mehta. Mr. Mehta is 
the Vice President for Amazon's Customer Trust and Partner 
Support team. The team is focused on creating a trustworthy 
shopping experience across Amazon stores worldwide by 
protecting customers, brands, selling partners, and Amazon from 
fraud and abuse, and they are also focused on providing world-
class support for Amazon's-selling partners. He joined Amazon 
in 2013, and prior to joining Amazon, Mr. Mehta spent most of 
his career in the technology industry in a variety of product, 
engineering, and marketing leadership roles. Welcome, sir.
    Our second witness is Ms. Erica Swanson. Ms. Swanson 
currently serves as the Head of Community Engagement for Growth 
with Google, which is a new U.S. initiative to help people grow 
their skills, careers, and businesses through free training, 
tools, and events. Previously, she served as Head of Community 
Impact Investments and Programs at Google Fiber. She led the 
team responsible for developing and delivering a range of 
social impact investments and community engagement strategies 
in Google Fiber cities. A key area of focus was partnering with 
local leaders to advance digital equity.
    Our third witness is Dr. Joe Kennedy, a senior fellow at 
the Information Technology and Innovation Foundation, where he 
focuses on economic policy. For almost 3 decades, he has 
provided legal and economic advice to senior officials in the 
public and private sector. Much of this advice has been 
directed at public policies involving technology, 
competitiveness, and the social contract. Dr. Kennedy 
previously served as the Chief Economist for the U.S. 
Department of Commerce where he oversaw a staff of 15 
economists and regularly briefed the Secretary of Commerce on 
economic issues including the financial crisis and immigration 
reform.
    Welcome, all.
    Mr. Mehta, you are now recognized for 5 minutes.

STATEMENTS OF DHARMESH M. MEHTA, VICE PRESIDENT, CUSTOMER TRUST 
 AND PARTNER SUPPORT, AMAZON; ERICA SWANSON, HEAD OF COMMUNITY 
   ENGAGEMENT, GROW WITH GOOGLE, GOOGLE; JOE KENNEDY, SENIOR 
     FELLOW, INFORMATION TECHNOLOGY & INNOVATION FOUNDATION

                 STATEMENT OF DHARMESH M. MEHTA

    Mr. MEHTA. Thank you, Chairwoman Velazquez, Ranking Member 
Chabot, and members of the Committee. My name is Dharmesh 
Mehta, and I am the vice president of Worldwide Customer Trust 
and Partner Support at Amazon.
    Amazon's mission is to be earth's most customer-centric 
customer. Our philosophy is simple: work backwards from what 
customers want--convenience, selection, and low prices--and to 
constantly innovate to make our store better, for both our 
buying customers and our selling partners.
    Amazon lowers barriers to entry for entrepreneurs. We help 
make retail more vibrantly competitive, and we delight 
customers with new innovations.
    In 1999, we decided to open our stores to small and medium 
businesses, or SMBs, to sell alongside us because we wanted to 
give customers greater selection that only third-party sellers 
could provide. In 2006, we did the same with our logistics 
network, and we invited SMBs to use a new program called 
Fulfillment by Amazon to give customers even faster delivery.
    With the partnership of small and medium businesses, we now 
provide our customers with even more selection with faster 
delivery speeds.
    Our store model has worked well because empowering third-
party selling has created a better customer experience than 
Amazon could otherwise provide on its own. Today, in the United 
States alone, there are more than 1.9 million businesses, 
content creators, and developers that are using Amazon's 
products and services to realize their dreams. And they are 
thriving. On average, they sell more than 4,000 items every 
minute. In 2018, there were over 25,000 entrepreneurs that 
surpassed more than $1 million in sales on Amazon.
    In addition, these entrepreneurs have used these sales and 
their businesses to create more than 830,000 jobs for 
Americans.
    When third parties first started selling on Amazon, they 
generated about $100 million in sales and were about 3 percent 
of our total sales. Since then, we have made substantial 
investments to help our selling partners succeed, and now, SMBs 
generate about $160 billion in sales, and they represent 58 
percent of the total value of physical products sold in our 
stores. That is because third party sellers are thriving and 
growing almost twice as fast as Amazon's own retail business. 
We celebrate that growth and we expect that trend to continue.
    But numbers paint only part of the picture. Every American 
small business has a story that tells much, much more. And so I 
would like to share one with the Committee.
    Let me tell you about Tara Darnley from Greensboro, North 
Carolina. She owns Darlyng and Company. Tara and her husband, 
Carl, had an idea for a new product to help their baby get 
through teething. At the time, Tara did not have a business 
background, she did not have a college degree, and her husband 
was working as a pastry chef. So they started to prototype 
devices, and a few prototypes later, Darlyng and Company was in 
business with the Yummy Mitt. Their innovative teether became a 
big hit at trade shows, and a few months later the Yummy Mitt 
was on retail shelves. However, Tara says that listing the 
product on Amazon was the real game changer. Tara not only sold 
on Amazon but she relied on Amazon customer reviews and sales 
data to grow her business. She said that she had initially 
focused on marketing to moms, but as she looked at the Amazon 
data, she realized that grandparents were an untapped target. 
Tara said that when their sales really jumped was when they 
started marketing to grandparents.
    Darlyng and Company is now a global company. They sell 20 
different baby products. Carl has quit his day job and he now 
works with Tara every day and they have 10 employees running 
the business.
    There are thousands of stories just like this that I would 
love to tell you if we had the time.
    We know that our selling partners have many ways to reach 
our customers, and so our value proposition has to be strong. 
That is the reason that this year we will invest over $15 
billion in infrastructure and tools and programs and employees 
that create programs to help our selling partners' success. We 
have 7,000 employees building tools and features that help our 
selling partners run their business, to set up their accounts, 
to list products, to manage their inventory and to grow their 
business. We have another 10,000 full-time employees that are 
dedicated to understanding, responding to, and providing 
support to our selling partners, and our goal is to respond to 
and resolve every one of those contacts expeditiously.
    Last year, more than 80 percent of those selling partner 
issues were fully resolved in less than 24 hours. We also have 
5,000 employees working to prevent fraud and abuse in our 
stores. Our efforts to proactively stop fraud and abuse are 
critical to creating a trusted shopping experience, not only 
for our customers but also for our honest selling partners.
    We are also proud of the work we have done to help our 
selling partners build thriving businesses beyond selling on 
Amazon. That includes hundreds of thousands of authors who have 
published millions of books through Kindle Direct Publishing, 
hundreds of thousands of SMBs and startups using Amazon Web 
Services, and hundreds of thousands of third-party developers 
who built more than 100,000 skills for Alexa. These 
opportunities enable a wide variety of entrepreneurs to sell 
their products, fuel their creative passion, grow their 
business, and create jobs.
    I look forward to answering any questions the Committee may 
have.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Swanson, you are now recognized.

                   STATEMENT OF ERICA SWANSON

    Ms. SWANSON. Chairwoman Velazquez, Ranking Member Chabot, 
and distinguished members of the Committee, thank you for the 
opportunity to appear before you today. I appreciate your 
leadership in making sure small businesses have every 
opportunity to grow and thrive, and I look forward to sharing 
with you the many ways that Google is committed to supporting 
that goal.
    My name is Erica Swanson, and I am the head of community 
engagement for Grow with Google, which is Google's initiative 
to create economic opportunity for all Americans. At google, we 
are deeply proud of the ways in which we support the success of 
the small business community in the United States and globally, 
and we believe large companies like google should play a role 
in helping them succeed.
    Today, I will discuss Google's positive economic impact on 
American businesses, the products and tools we provide small 
businesses to help them succeed, and Grow with Google's free 
trainings and programs for American small business owners and 
employees.
    Google tools help American businesses find and connect with 
customers. In 2018, Google's search and advertising tools 
helped provide $335 billion of economic activity nationwide. 
Over 1.3 million U.S. businesses, website publishers, and 
nonprofits use our tools annually to grow their customer base 
and drive revenue.
    Two examples of small businesses that use our products and 
services to grow their business and reach new customers are 
Propel Electric Bikes in Brooklyn, New York, and Nehemiah 
Manufacturing Company in Cincinnati, Ohio. I go into more 
detail in my written testimony about how these inspiring 
businesses are using our products to succeed.
    There are a number of ways our products and tools help 
small businesses meet their online goals. Businesses are 
discoverable not only in organic search--that is the standard 
nonadvertising search results--but also through free business 
profiles on Google where businesses can list their websites, 
add photos, update their hours, and more.
    In addition to free services, we have a robust suite of 
advertising products that help small businesses reach the right 
customer at the right time. For every $1 invested in Google 
ads, our estimate suggests that businesses make an average of 
$2 back in revenue.
    With Google analytics on a business website, the owner can 
better understand their customers to make online marketing 
efforts even more effective. And, Google Suite of workplace 
productivity tools called G Suite helps small businesses work 
more efficiently.
    Google also plays a part in helping small businesses reach 
new customers who are outside the U.S. Small business exports 
contribute significantly to the U.S. economy.
    Market Finder is Google's free tool that enables any small 
business to identify the best expansion markets for their 
business, find shipping and logistics partners, adapt to local 
markets, and start exporting to customers around the world.
    We understand that the magnitude of tools and resources 
available can be daunting. That is why we launched Google for 
Small Business, a dedicated online tool that curates our 
resources into a personalized digital marketing plan.
    We also help small businesses learn how to use our products 
and tools. Through our Grow with Google program, we are seeking 
to ensure that more Americans size the opportunity that is 
created by technology. Since 2017, Grow with Google has trained 
more than 3 million Americans in all 50 states. We do this 
through our free online tools, partnerships with local 
organizations, delivering in-person trainings, and providing 
philanthropy to organizations that are helping small businesses 
learn skills.
    We also know how important it is to support small 
businesses that are just getting started. So last month, as 
part of our $1 billion global commitment to create more 
economic opportunity for everyone, Google.org announced a $10 
million U.S. commitment to help low income, underrepresented 
entrepreneurs start their businesses by providing access to 
training, mentoring, and much-needed capital.
    Our Grow with Google programs continue to meet the needs of 
our users. For example, just last week we partnered with the 
Small Business Administration to support National Veterans 
Small Business Week. We also launched a series of new resources 
that support the 2.5 million veteran-led businesses in the 
United States.
    In conclusion, the future of small businesses online is 
bright, and we are proud of the role we play. We appreciate the 
opportunity to highlight Google's contributions to helping the 
small business community, and we thank you. We look forward to 
your questions.
    Chairwoman VELAZQUEZ. Thank you.
    Dr. Kennedy?

                  STATEMENT OF DR. JOE KENNEDY

    Mr. KENNEDY. Thank you very much Chairwoman Velazquez, 
Ranking Member Chabot, and members of the Committee. I am 
pleased to be here to talk about the impact that large Internet 
companies are having on small business. I would like to make 
five basic points in my opening statement.
    The first is that large Internet platforms deliver 
tremendous benefits to small business. Any business now can set 
up a free website, but it can also set up social networking 
accounts for free using Facebook, Instagram, YouTube, and 
Amazon.
    Not only that, it can also use market platforms like eBay 
and Amazon to sell worldwide to potential customers. These 
platforms often offer a variety of other services such as 
handling the payments, shipping, and handling returns, thus 
saving the small business from having to do that itself.
    Gig platforms match small business men and women with 
potential customers that are interested in their services 
allowing them to build a clientele without spending more money 
on print advertising, radio, or mail inserts.
    And finally, a separate set of platforms, including 
Microsoft and Google offer cloud services on demand for small 
businesses.
    My second point is that these platforms share a common 
interest with the small businesses that use them, and that is 
to offer a larger variety of good products and services which 
will attract more consumers, which will result in more sales. 
Platforms that do not do this successfully will lose market 
share.
    My third point is that this fundamental model is not new. 
We also have large retail chains, including Costco, Safeway, 
CVS, and Walmart, which offer shelf space to thousands of 
suppliers. These retail shops collect a lot of data on what is 
selling, and occasionally they make the decision to offer a 
competing product. That product then sits on the same shelf 
often with those of its other suppliers, and it is sometimes 
offered at a discount. Wherever this happens, consumers 
benefit. They get a broader choice and they get lower prices, 
and this is exactly the type of competition that we should be 
encouraging.
    My fourth point is that globalization and technology have 
changed the optimum size of firms in many industries. Small 
firms feel pressure to grow in order to take advantage of a 
global market. But platforms relieve some of this pressure 
because they stand ready to take some of their fixed costs and 
turn them into variable costs that can scale up or down with 
business conditions. And so these include some of the ones I 
have mentioned--shipping, returns, and setting up cloud 
services.
    My final point is that anti-trust policy should encourage 
competition. But it should not protect companies, whether they 
are large or small, from the effects of that competition. The 
fundamental guidepost for anti-trust should remain the consumer 
welfare standard, which looks at whether a particular merger or 
a business activity will harm consumers by raising price, 
lowering quality, or delaying innovation. Where these occur, 
existing policy and law allows regulators and potential 
plaintiffs to take action to rectify the situation.
    But we should not use anti-trust policy to try and 
accomplish other goals, such as instilling privacy requirements 
or trying to rebalance the political power between large or 
small companies.
    With that, I will conclude my statement. And I want to 
thank you again for this opportunity to talk to you. And I look 
forward to your questions. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Dr. Kennedy.
    Thank you all for your testimonies.
    I will begin by recognizing myself for 5 minutes.
    I would like to address my first question to you, Mr. 
Mehta. Some argue that Amazon does not just dominate the online 
market; it controls its access by creating a platform for 
sellers while also competing against those same businesses. 
Doesn't a company that sells things and owns the platform where 
things are sold have an inherent advantage over other small 
businesses that it is competing against?
    Mr. MEHTA. Thank you, Chairwoman, first, for holding this 
hearing and allowing Amazon to participate in this 
conversation. You know, I am honored to be here.
    Let me address your question by comparing ourselves to what 
happens traditionally in the retail market. And when we talk 
about retail, we talk about the overall retail market.
    Amazon represents about 1 percent of the worldwide retail 
market and about 4 percent of the U.S. retail market. Whether 
you look at Walmart or Target or Trader Joe's or Costco, all of 
these major retailers have a private label business that 
competes with others in their store.
    For Amazon, our private label business represents about 1 
percent of our total sales. If you look at most of these 
retailers, their private label businesses represent anywhere 
from 18 to 85 percent of their total sales.
    Chairwoman VELAZQUEZ. I hear you, however, there is some 
research that show that Amazon's own product consistently wins 
the buy box. We know what went in the buy box, the area on the 
right hand side of the page that says ``add to cart.'' To me 
this suggests that the buy box is designed to favor Amazon and 
potentially gives you an unfair advantage.
    I have a lot of questions, so let me proceed.
    Ms. Swanson, like Amazon, Google has market dominance in 
that 95 percent of all Internet searches go through Google. 
Small businesses cannot survive on the Internet if they cannot 
be found. However, when Amazon, Walmart, Verizon, Expedia, and 
many more large companies spend millions advertising on Google 
and their ads appear on the first page, does this not crowd out 
the ability for small firms to advertise online?
    Ms. SWANSON. Thank you, Madam Chairwoman, for having us 
here and for the opportunity to have this conversation.
    There are a number of ways that small businesses can be 
discovered online. And at Google, we are proud to provide a 
range of options, both paid and unpaid. We have a suite of 
tools that are free at no cost to small businesses.
    Chairwoman VELAZQUEZ. So if you Google a restaurant that 
does not pay but is using your free space, that restaurant will 
probably show up on page five or seven. That clearly gives an 
advantage for those who pay and will show up on the first page.
    Ms. SWANSON. There are a number of ways that small 
businesses like this small restaurant could appear depending on 
the particular search query, whether that search query included 
the restaurant's name. But typically, if it includes the 
restaurant's name or a qualifier, like near me, it will appear 
in the first set of organic search listings.
    Chairwoman VELAZQUEZ. How can entrepreneurs optimize their 
search results? Does Google Maps only identify restaurants and 
hotels on its mapping platform that are willing to pay to be 
found?
    Ms. SWANSON. No, Madam Chairwoman. We have a number of ways 
that small businesses can appear on Google Search and Maps. 
Many of those are free.
    So, for example, Grow with Google helps small businesses 
claim their free Google My Business Listing which allows a 
small business to share their website, or if they do not have 
one, create a website so that they show up in that local search 
on that map. They can share their hours. They can share 
customer reviews, encourage that conversation with customers 
that is so important to building customer loyalty over time.
    Chairwoman VELAZQUEZ. Mr. Mehta, small businesses just want 
to be treated fairly and understand Amazon's terms of use 
regarding pricing, fees, and other arrangements.
    Is it true that for some businesses, 30 to 40 percent of 
their sales price goes back to Amazon?
    Mr. MEHTA. Chairwoman, the way our fees work, for 
professional sellers on Amazon, they pay $40 a month here in 
the U.S., and then on top of that they will pay a fee that 
depends on the product they sell, typically 8 to 15 percent. 
Any additional fees are up to the seller based on additional 
services they choose to use, such as our fulfillment services 
or advertising.
    Chairwoman VELAZQUEZ. Do you have a number as to the 
percentage that they pay back to Amazon compared to the profits 
that they are making on average?
    Mr. MEHTA. Madam Chairwoman, I do not have that data point 
in front of me. I would be happy to have the team follow up.
    Chairwoman VELAZQUEZ. Does Amazon give sellers adequate 
notice and transparency of changes to fees or other terms of 
their seller agreement?
    Mr. MEHTA. Our fees are publicly posted. They are both 
available to all sellers before they start selling, as well as 
anyone in the public can see those fees. We try to provide 
transparent advanced notice before changing those fees.
    Chairwoman VELAZQUEZ. You try to provide changes, but do 
you notify sellers in advance?
    Mr. MEHTA. Madam Chairwoman, I do not own our fees. I am 
happy to have someone follow up with the specifics of what has 
been done in every instance.
    Chairwoman VELAZQUEZ. Okay.
    Mr. MEHTA. But we want our sellers to be able to plan for 
our fees. We try to make those fees very attractive. You know, 
for instance, if I look at our Fulfillment by Amazon fees that 
provide fulfillment services for sellers, we benchmark those 
versus the alternatives that the sellers have. Our fees on 
average are 50 to 80 percent lower than sellers' alternatives.
    Chairwoman VELAZQUEZ. What I am asking is if you provide 
notices in advance giving them enough time. What about sellers 
that use Amazon warehouses? Do they have opportunities to 
reconcile if there is a dispute with Amazon and prevent their 
inventory from being seized?
    Mr. MEHTA. Absolutely. So when sellers send their inventory 
into our fulfillment centers if they choose to use Fulfilled by 
Amazon, they have visibility into their inventory, that 
inventory that is available for sale when it is purchased, and 
if for any reason there is a dispute, we have 10,000 associates 
that support sellers every day and respond to them quickly.
    Chairwoman VELAZQUEZ. Does Amazon consider how long a 
seller has been using the platform before closing or suspending 
an account?
    Mr. MEHTA. When we close or suspend accounts, they can be 
done for a variety of reasons. If an account is suspended for 
potential fraud or abuse, or other policy violations, we make 
decisions around closing accounts based on the activities that 
have happened and the potential policy violations.
    Chairwoman VELAZQUEZ. Thank you.
    Now I recognize the Ranking Member.
    Mr. CHABOT. Thank you, Madam Chair.
    Mr. Mehta, in March, the U.S. Chamber of Commerce in 
partnership with Amazon published a report detailing the impact 
of technology on rural communities. The report acknowledges 
that rural business owners who have already embraced digital 
technology are seeing tremendous results. What has been your 
experience in seeing the potential of ecommerce for growth by 
small businesses in rural America?
    Mr. MEHTA. Thank you, Ranking Member Chabot, for the 
question.
    It is a great question. One of the powerful things that 
enabling sellers to sell in Amazon's stores has achieved is for 
these businesses that are often in rural America that have 
historically set up physical shops have only been able to reach 
customers within a small distance of their physical store. By 
selling on Amazon, we enable them to not only sell in their 
local district but to sell across their state, to sell across 
the country, and increasingly, to sell across the world.
    As one example, a feature we launched recently called FBA 
Export is a program for sellers that use our fulfillment 
services to export products to other parts of the world. It 
helps sellers find customers in other parts of the world. It 
helps navigate export requirements. That one program generated 
$1.8 billion in sales for American businesses.
    Mr. CHABOT. Thank you very much.
    Ms. Swanson, I will go to you next.
    It is my understanding that about 96 percent of the people 
that occupy this globe are outside the borders of the United 
States, so there is a huge market out there for large and small 
businesses. And I have got a book here, Growing Small Business 
Exports by Google. And could you tell us, obviously, we do not 
have time to go through all this, but what is Google able to do 
to allow America's small businesses to more successfully market 
their products across the globe?
    Ms. SWANSON. Thank you, Ranking Member Chabot.
    Being able to increase broader markets is increasingly 
important to small businesses. My family had a small business, 
a bakery in a small town, and their market was their town. And 
today, a small business like that can reach and sell across the 
Nation and across the globe. This is important to our economy. 
And to job creation in the United States.
    One recent study shows that 6 million jobs in the United 
States are supported by small businesses who are exporting. 
Google is proud to make it easier for small businesses to 
export their goods and to find new markets. Examples are 
Strider Sports in South Dakota. They had this great little idea 
to build bikes that little kids could push without needing 
pedals so they could move without falling over. They had this 
great idea, and now thanks to digital tools and the expanded 
market that the web enables, they have sold 2.5 million bikes 
in 78 countries, and the majority of their sales are coming 
from international exports. This has really enabled because the 
web has enabled small businesses to reach into these global 
markets to find new places to reach new customers.
    Mr. CHABOT. Thank you.
    Mr. Kennedy, or Dr. Kennedy, I am sorry, some have 
suggested recently that we need a new regulatory regime to 
clamp down on tech companies and that the government ought to 
be determining what you do and how you do it, et cetera, to a 
much greater degree than exists today. Obviously, these are 
private companies, but we also want them to be fair with the 
public and that sort of thing.
    What is your view relative to additional regulations coming 
out of Washington?
    Mr. KENNEDY. I tend to be very skeptical of that. I think 
that the government's primary purpose should be to try and 
ensure a competitive market and to try and make sure that there 
is active competition that results in good products at low 
prices going to consumers. It should be reluctant to take a 
side in the various battles that occur between businesses over 
different practices, you know, getting market share.
    The one exception is where there is either a merger that 
could result in monopoly power or where there are clear, 
uncompetitive practices, and there I think the existing anti-
trust laws already give regulators and potential plaintiffs the 
powers that they need to restore competition.
    I do think it is worth having a dialogue about fair 
business practices in general regarding transparency and 
consistency, but I am very reluctant to have the government 
mandate those. I think it is likely to be more productive if 
decisions are arrived at in an open conversation.
    Mr. CHABOT. Thank you very much.
    Mr. KENNEDY. Thank you.
    Mr. CHABOT. My time is expired, Madam Chair.
    Chairwoman VELAZQUEZ. Do you have any other questions?
    The Chair recognizes Ms. Davids from Kansas.
    Ms. DAVIDS. Thank you, Chairwoman. And Ranking Member 
Chabot for holding this hearing today. And I think this is a 
really important conversation as it relates to our country's 
small businesses.
    Finding a fair marketplace and competing with big 
businesses has always been a challenge for small businesses. 
And using and competing with large tech companies, however, is 
a new iteration on that issue. So it is vital that we ensure 
that online marketplaces provide a fair online space for 
businesses to compete.
    And I actually am going to follow up on the Ranking 
Member's line of questioning because that is where I was headed 
anyway.
    So Dr. Kennedy, I noticed in your testimony, and you 
actually started getting into it based on Ranking Member 
Chabot's questioning, can you talk to us a little bit about 
enhancing the rules governing fairness and transparency as it 
relates to how small businesses can interact with these large 
platforms, that in some instances they are both a customer and 
a competitor of the large platforms?
    Mr. KENNEDY. Yeah. I do not feel I can get into a lot of 
detail but I used to be general counsel of the Senate 
Subcommittee on Investigations, and there we found that when we 
saw a problem in a particular market, often if we called people 
in and we had a quiet discussion with them about why they did a 
certain thing, we could get a sensible resolution. And they 
would go off and amend their practice. And I think that kind of 
informal dialogue can accomplish a lot.
    I think as far as specific things, in general I think it is 
reasonable for a businessman to know what the rules are for a 
platform and to have them applied with some consistency. And as 
a general manner, I would look at Costco or Walmart and I would 
look and see how are they treating their suppliers? And we do 
not seem to have a lot of problems with them. So, you know, if 
they have a particular practice, if Amazon and Google has a 
similar practice, I do not think necessarily we should have a 
problem with them either.
    I do note, I forget the gentleman's name, but one of the 
people on the next panel has in his file testimony a pretty 
good discussion of some of the issues and possible resolutions. 
So I think they are out there.
    Ms. DAVIDS. In your testimony you talk about an example of 
the United Kingdom's open banking initiative and the E.U.'s 
payment services directive. Can you talk a little bit about 
that?
    Mr. KENNEDY. Well, I do not know----
    Ms. DAVIDS. And why you used them as an example?
    Mr. KENNEDY. I do not know the great details in them, but 
in general, they allow, my understanding is that they allow a 
banking customer to mandate that his or her information be 
available to various outside apps so that if you want to 
download an app that will download information from your say 
banking account and compare your fees to the fees of other 
banks and tell you how you could save on fees by moving to a 
different bank----
    Ms. DAVIDS. So you think those kinds of policies might be 
helpful when we are talking about large Internet platforms----
    Mr. KENNEDY. Yeah.
    Ms. DAVIDS.--that are selling goods and services and having 
a very transparent process of understanding what your fees are? 
If you were paying for Google to put you in a search versus 
another searching platform. I am actually not sure what other 
platforms folks use besides Google, which kind of brings us to 
the point of how dependent small businesses might be on one or 
two specific platforms. Do you think that that is something 
that we need to see more of in these instances?
    Mr. KENNEDY. I think in general it is good to have a 
conversation between Congress and the industries. It often is 
better to have it in private where people do not feel under the 
gun that they have to get every word exactly right. And I think 
that often that results in reasonable changes to business 
practices. You know, platforms already have a strong interest.
    Ms. DAVIDS. My time is running out.
    I think the folks in my district might be a little 
surprised to hear you say that we should have meetings behind 
closed doors with large businesses, but I thank you for your 
time, and thank you for your testimony today.
    I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    The gentleman from Oklahoma, Mr. Hern, Ranking Member of 
the Subcommittee on Growth, Tax, and Capital Access is 
recognized.
    Mr. HERN. Thank you, Madam Chairwoman.
    As you all know, every big business begins as a small 
business, and as an entrepreneur, a business owner, a job 
creator of thousands of jobs over 34 years, I appreciate the 
support that you have given the small business job creators of 
the world.
    I was just looking, I have five businesses that I created 
that my family members now run today thanks to being in 
Congress that use both of your services, either Google Suites 
or the AWSS3 server system and cloud-based other tools that you 
have. So I really appreciate it.
    And for Amazon, this support is represented by 5 million of 
AWS credits that you gave out in 2018. This has led to hundreds 
of thousands of small businesses, startups using your web 
services to launch and scale their businesses, including over a 
million current small businesses utilizing their web services, 
6,500 of which are in my home state of Oklahoma.
    As for Google, the support for small business is 
represented by the fact that in 2018, your search and 
advertising tools helped to provide $335 billion of economic 
activity nationwide, $712 million of economic activity in 
Oklahoma, and $1.69 million of free advertising in the Oklahoma 
nonprofits. Benefits for over 7,800 Oklahoma businesses, 
website publishers, and nonprofits, and we thank you for that.
    Both of you all are very well represented in our northeast 
Oklahoma area. The Google data center complex is just outside 
of my district, which I have had the opportunity to tour, which 
I will go on the record to say it is very large. The Amazon 
fulfillment center coming to Tulsa in 2020 is the largest ever 
job employer ever in the history of northeast Oklahoma where we 
are at. So I really appreciate that.
    So with all of this, I would say that what you do also for 
helping small businesses start up and help with the protecting 
of small business from cyber threats, I would like for you just 
to take in my remaining amount of time here, so hopefully a 
minute and a half each, that each of you could talk about how 
beneficial these startup services are and the ability to 
continue on with your marketplace.
    We will start with Amazon, your marketplace, and cyber 
threats as we are seeing them today, how you can help secure 
those fronts for small business and entrepreneurs.
    Mr. MEHTA. Thank you, Congressman.
    You know, absolutely, one of the things that we find to be 
very powerful for these small businesses is the way that we can 
level the playing field, that we can provide access to not only 
the reach of hundreds of millions of customers, not only the 
large fulfillment centers and the fulfillment capability we 
have built, but also the advanced fraud and abuse detection 
capabilities that protect these small and medium businesses 
that end up lowering costs for them and are going to continue 
to allow them to thrive. We think some of the key ingredients 
that have continued to allow small businesses to grow so fast 
and become now 58 percent of our total sales.
    Mr. HERN. Thank you.
    Ms. Swanson? Dr. Swanson? Ms. Swanson? I am sorry.
    Ms. SWANSON. Still Ms. Thank you, Congressman Hern.
    Google is really proud to call Oklahoma home, and I am 
pleased to hear that we have customers in your family.
    Cloud computing is one of the ways that we help small 
businesses take their security very seriously. Cloud computing 
can give small businesses an advantage that was not available 
many years ago. It can help them access their data from 
anywhere, anytime, at a reasonable price. And security and that 
safety is really built in.
    What we hear as we travel the country working with small 
businesses is that they are really good at what they do. They 
know their business. What they might not know as much about is 
the digital tools, things like how to keep their data safe. And 
so they turn to affordable products, like cloud computing, to 
keep their data safe.
    Mr. HERN. I appreciate both of your comments. The only 
thing I would like to say in my remaining moments is I think 
sometimes people forget that every large business did start as 
a small business, and I think we oftentimes forget, in the case 
of both your companies for sure, and obviously, Mr. Zuckerberg, 
who is not here, your companies were started by the people who 
are currently involved in your companies. And we just ask I 
think collectively as a bipartisan Committee that they not 
forget where they came from. Whether it be Mr. Brin and Mr. 
Page in their dorm room at Stanford or whether it be Mr. Bezos, 
who I would like to go on the record to say his first job was 
at McDonald's at 16 years old, someone near and dear to my 
heart, and learned a lot from that lesson. That they would not 
forget and continue to help entrepreneurs create this 
competitive environment and the free market ideas that got them 
the ability to start and allow them to get them to where they 
are at today, that they would not forget that. And if that is a 
message that we could get collectively bipartisan out of this 
Committee and back to them, and many of the other companies 
that have come from absolutely nothing, we would like to make 
that message heard loud and clear. Thank you.
    I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize Mr. Evans from Pennsylvania, Vice Chair of 
the Committee.
    Mr. EVANS. Thank you, Madam Chair. And I thank you for the 
leadership on this discussion.
    I would like to start out with just the title. Basically 
the title is, ``A Fair Playing Field? Investigating Big Tech's 
Impact on Small Business.
    So I would like to start out with, I think is his name Mr. 
Kennedy? Is that you?
    Mr. KENNEDY. Yes.
    Mr. EVANS. You were kind of giving a general sense of what 
certain things you did not think should happen in terms of what 
government should do. So you see that question, and it is a 
very simple question. So kind of give me your reaction to the 
question that we are just attempting to do our oversight 
responsibility. You know, we know the importance of small 
business in this Nation and the role that it plays. I come from 
the City of Philadelphia. We have 25 percent poverty. I would 
like to see more growth and more opportunity. So can you talk a 
little bit about relating to what you see as the fair playing 
field? Because what I heard you mention as a solution was kind 
of using a soft stick of conversation. So talk a little bit to 
me about how you view the fair playing field.
    Mr. KENNEDY. So I think the government should work hard to 
make sure that it is as easy to start a business as is 
possible. That it is as easy to get credit, consulting help as 
is possible. That when a business does get created that the 
markets it is in are competitive and give it a fair shot. That 
the rules of the market, the laws are, you know, fairly 
applied. But it should not try and favor one set of businesses 
over the other, whether they are small businesses versus big 
businesses, or platforms versus sellers. It should allow that 
competition to go on and that competition inevitably results in 
losers who complain. But unless there is a demonstrated 
unfairness in the rules of the market, in which case anti-trust 
already has the powers to deal with it, the government should 
leave well enough alone.
    Mr. EVANS. Well, if you were whipping out your report card 
at this point and you look at where we are, and obviously, this 
is new to all of us. I mean, we are just fully trying to 
understand it, but we hear a lot of complaints about 
individuals not being able to get into the marketplace. As you 
say, government should just leave it like it is, then how are 
you rating it at this point?
    Mr. KENNEDY. Well, I think the companies testifying today 
and the other ones we have mentioned, they already have a 
significant interest in expanding the number of small 
businesses and big businesses that use their platform and 
working with those businesses to grow their volume. So that 
incentive already exists.
    Now, about the margin about this rule or that rule or how 
it is applied, and I think, you know, government usually is 
better off not getting too involved in setting those rules, but 
should concentrate on is the competition on the whole fair?
    Mr. EVANS. But would you agree, you may or may not, would 
you agree that it is critical that small businesses are given 
an equal opportunity to enter the marketplace and flourish?
    Mr. KENNEDY. Yes.
    Mr. EVANS. Okay. Well, I guess that is why I was kind of 
trying to drill down on the question and what your view of it 
because obviously, you know, maybe some cases it may not be 
working.
    Mr. KENNEDY. Yeah. And I think the central question we ask 
is what is going on hurting the customer? So if competition is 
putting some companies out of business but prices are going 
down, efficiency is going up, consumers are benefitting, then 
that is okay. If consumers are getting hurt because companies 
are getting monopoly power and they are raising prices, then 
that is not okay and we have anti-trust policies. But we ought 
to look at how is the consumer being helped or hurt.
    Mr. EVANS. Thank you.
    And I yield back the balance of my time, Madam Chairperson.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Minnesota, Mr. Hagedorn, is recognized 
for 5 minutes.
    Mr. HAGEDORN. Thank you, Madam Chair, and Ranking Member 
Chabot. I appreciate the witnesses.
    I represent a rural part of southern Minnesota there, and 
so obviously, for small businesses and entrepreneurs wanting to 
get their start, the platforms that you provide can make a huge 
difference. They have in many instances. So especially from a 
rural standpoint, I get it, and I think as my colleague, 
Congressman Hern said, in many ways this is a really good 
thing.
    But I did talk with someone in my office recently, Mr. 
Mehta, about a product that a woman named Sophia had on your 
platform. She is selling espresso machines. Had about $100,000 
put into the business. Very happy because doing it through you 
she can work from home and all sorts of kind of you would say 
luxuries for a business owner to be able to do those types of 
things. But she said there were certain costs. You know, 15 
percent on average goes to your company to sell their machines. 
There could be storage costs if you have machines at the 
warehouses and things like that. And also, some advertising. So 
in general, do you think the way that you are charging these 
small businesses is fair? Are there ways to look at that to 
make sure that they are not being gauged? How would you respond 
to that?
    Mr. MEHTA. Congressman, thank you for the question.
    You know, fundamentally, the way we view this is that we 
succeed when sellers succeed. Our growth over the years, a 
large part of it is because of the success of these small and 
medium businesses. We want to make sure we offer a set of 
services at a set of fees and prices that are super attractive 
and reasonable. Now, advertising is one of those services that 
can be very powerful for that rural business that has an 
unknown brand that no one may know about that maybe has 
invented an amazing espresso maker. We want them to be able to 
advertise their products, but advertising is a choice. For the 
brand that is known and is generating the sales or the 
awareness that they want, they do not have to buy advertising. 
We try and make as many of these a choice, a simple choice with 
easy to use tools so that different small and medium businesses 
can pick the set of services that work best for them.
    Mr. HAGEDORN. I think that is a very good answer. It makes 
sense. You want your clients to be successful, and then from a 
customer standpoint it is awesome for us to be able to go 
there, wherever it is, and find all these different choices and 
shop and things of that nature.
    So then I would move on to the other aspect of this which 
is kind of the infrastructure of how we search for companies 
that can provide services and products, so I would go to Ms. 
Swanson. How do we know for sure that your company is not 
picking winners and losers in the marketplace? That you are not 
really fronting for companies that may advertise more, or just 
in general, how can we be assured that that is not happening? 
Because you are the infrastructure. You are like the road, and 
if you just decide that only certain cars and trucks get to go 
out first or get to drive faster and everybody else is left 
behind, that would not be fair. So in this case with the 
Internet, how would you respond to that?
    Ms. SWANSON. Thank you, Congressman, for the question.
    At Google Search, we build, we design for everyone. The 
business model of search is dependent upon being useful and 
being trustworthy for our users. So we have natural long-term 
incentive to prevent that type of activity on our platforms.
    We build those platforms and those products in a really 
neutral way, and we work hard to make sure that we are 
continuing to improve search to surface the most reliable, most 
relevant answers for our search users in real time.
    Mr. HERN. Well, who audits you to determine whether or not 
that is happening? Because you do not know what you do not see; 
right? So if I put in a search for widgets but some company 
does not come up, how would I ever know that? So who would kind 
of look over your shoulder to make sure that that is being done 
properly?
    Ms. SWANSON. Yeah. We have a series of processes and 
safeguards in place that allow us to continue to test. And then 
evolve and improve the way that search functions. Some of the 
ways we do that, for example, are running hundreds of thousands 
of experiences every year and asking independent search users 
to review the quality of those search improvements, always 
looking to understand are we providing the most relevant, 
reliable answers to our search users. We take that feedback 
into account. We take it very seriously.
    Mr. HERN. Yeah. I am not always for too much regulation in 
the marketplace and things like that but I think we should make 
sure that in the future there is at least somebody who is 
overseeing this or looking at the results to make sure that if 
it is not happening, then we need to make some changes because 
I think you would want to be the first ones to make changes so 
the government would not move in and regulate in these areas. 
But it is pretty important, I think, for businesses and the 
consumers that that be done on a fair basis. So thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Maine, Mr. Golden, Chairman of the 
Subcommittee on Contracting and Infrastructure is recognized.
    Mr. GOLDEN. Thank you, Madam Chair.
    Mr. Mehta, I wanted to ask, does Amazon use algorithms that 
favor sellers who use Fulfillment by Amazon over those who 
chose to do Fulfillment by Merchant?
    Mr. MEHTA. Thank you, Congressman, for the question.
    The short answer is no. We design our algorithms for search 
and the products we feature based on what we think customers 
want regardless of whether those products are sold by Amazon.
    Mr. GOLDEN. Just to be clear, not products but sellers.
    Mr. MEHTA. We do not design them to favor sellers or 
products based on who is selling them or the fulfillment 
channel. We design them to prioritize what we think customers 
want most.
    Mr. GOLDEN. All right. I guess we have heard from some 
people back home in Maine who are concerned that that may not 
be the case, and perhaps you have a better explanation. But has 
Amazon ever been willing to maybe do some third-party testing 
on its algorithms which, of course, would be done to avoid 
revealing how the precise mechanisms work but could confirm for 
sellers that there is, in fact, no bias towards people who use 
one or the other?
    Mr. MEHTA. I would have to have someone from our search 
team follow up, but I do know we run constant experiments 
looking at our search results to make sure we are prioritizing 
what customers want most and that we are avoiding any kind of 
unintentional bias in that system. I would be happy to have the 
team follow up with you.
    Mr. GOLDEN. All right. I would appreciate that very much. 
And obviously, that would be important to avoid that kind of 
unfair bias.
    We have a company in Maine that sells products to help keep 
houses from losing heat in the wintertime. They choose to ship 
their own orders and believe that they have noticed that their 
product has started missing out on search placement and sales 
to competitors who use FBA. They believe their experience is 
backed up by testimony from the Institute for Local Self-
Reliance at a July House Anti-Trust Subcommittee hearing and a 
letter to Congress from another seller described in a November 
8th Bloomberg article.
    Another concern that we have that impacts sellers' ability 
to choose whether or not they want to use FBA instead of going 
with their own option is that sometimes Amazon may suspend 
sellers' accounts if they deliver items late. I understand you 
are trying to look out for consumers, but I also understand 
that you may exempt sellers who use FBA from similar penalties. 
I am just curious, is there a penalty to Amazon itself under 
FBA for late delivery that would either recompensate the seller 
or the consumer similar to way of people who do fulfillment by 
merchant?
    Mr. MEHTA. Thank you, Congressman.
    If an order is delivered late by our fulfillment services, 
Amazon takes responsibility for that order, makes sure the 
customer is made whole, and we do not hold sellers liable for 
that. So we do take accountability for this.
    Mr. GOLDEN. All right. Good. Good. That just seems like a 
common, that you can hold yourself to the standard you would 
hold other, some of your clients to would be important. I 
appreciate that.
    If I could shift over to Ms. Swanson. I think we are going 
to hear some testimony from the second panel. I do have some 
concerns. I am just curious in learning more about it having to 
do with some of Google's blue book a room button changes and 
also some potential changes recently this year having to do 
with how people are able to find businesses' phone numbers. And 
I think you probably heard many questions about the blue 
button, you know, in a system where essentially people are 
booking, whether they know it or not, through OTAs. You know, 
you may have a consumer seeking to purchase a room directly 
from a hotel or a bed and breakfast or something and largely 
unaware that they are booking through an OTA when they use the 
blue book button. I am curious if you have any feedback about 
that change. Have you considered whether or not you can build 
in the ability for consumers to choose to go directly to a 
business? And secondly, I have heard that there have been 
changes this year where a lot of searches no longer have phone 
numbers for businesses directly listed unless they opt to pay 
for that listing, essentially paying to have their own phone 
number advertised. And of course, as a consumer, very 
frustrating to think you have booked directly with someone, 
then try and pick up the phone and call them and realize you 
cannot.
    Ms. SWANSON. Thank you, Congressman, for your question.
    There are a number of ways that a user might go about 
finding a service provider, for example, a hotel, could be to 
direct navigate to that website, could be to search for it, 
could discover it in an organic search, or could choose to book 
through an OTA.
    You asked about some of those panels that we have on the 
right side of search. We do work to make it very transparent to 
the user when they have the option of booking through the 
official site. There is a little button there that says the 
official site, for example, of that hotel. Although some users 
may choose to book through an OTA for their own personal kind 
of shopping preferences, and that is a choice that we want to 
provide.
    You also ask a little bit about how small businesses can 
make their phone number available. We know that is really 
important to be able to provide that direct connection from 
search to a small business can be a critical way of initiating 
contact with that potential customer. And through our local 
services, features, and products, we can help small businesses 
list their phone numbers for free in their Google My Business 
listing, direct that call directly to that small business.
    Mr. GOLDEN. Thank you. I appreciate that.
    I am overdue on time, but I would just ask that you commit 
yourself to that transparency for consumers, particularly as 
you need to change your interface for things like the smaller 
screens. Suddenly, that transparency becomes much more 
difficult for consumers.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Ohio, Mr. Balderson, Ranking Member of 
the Subcommittee on Innovation and Workforce Development is 
recognized for 5 minutes.
    Mr. BALDERSON. Thank you, Madam Chair. Thank you all for 
being here.
    I want to do a couple questions and kind of follow some of 
Mr. Hern's lead, and I will probably try to work with you all 
some more.
    It is good for us to find out the technology side of the 
companies in American small businesses, and I am going to share 
more the success side of it. But Mr. Mehta and Ms. Swanson--
sorry, bad angle here--I first want to thank you both and your 
companies to date in the district and in the State of Ohio. 
Amazon has invested $5 billion, and Google, you have invested 
closer to $7 billion. So thank you both very much. And I want 
to share a story.
    I did the groundbreaking ceremony for Google a couple weeks 
ago, and I was pulling in the facility and I was driving and I 
look off to the side and I see one of my buddies. He has got 
waste dumpsters there. There were nine of them I counted, so I 
got out excited for him. I thought, wow, Google is actually 
working with small businesses here in the district and the 
community. And I thought how important that was. So I call Seth 
up and I say, ``Hey, Seth, congratulations, man. I am looking 
at your dumpsters here. I see nine of them out here.'' And he 
said, ``Nine?'' He said, ``There better be 14.'' I said, 
``Well, we will cross that bridge when we come to it.'' But 
anyway, just thank you, because that is meaningful to small 
business owners in those districts when you build these huge 
data centers. So thank you very much.
    Would each of you, please, explain to this Committee what 
the growth of the Internet and the information age has meant 
for small businesses?
    Ms. Swanson, ladies first.
    Ms. SWANSON. Thank you, Congressman, for the question. And 
thank you for the kind words about our data centers. What you 
saw was part of a $13 billion investment that Google is making 
across American to create new data centers and expand our 
offices. And we are committed to working with small businesses 
in these communities as part of that work.
    We really see the Internet and Google products and tools as 
being great equalizers, as being tools that help small 
businesses do things, reach customers, and become discoverable 
in ways that used to be only available to the very biggest of 
businesses. It used to be that if you were a small business and 
you wanted to market to customers you had few options. They 
were TV. They were radio. Maybe outdoor, out of home in some 
way. And now if you are a small business, you can set your 
budget, and with a very limited budget even, make really 
effective focus online media advertising campaigns.
    And we hear that is a game changer. As we travel the 
country, we hear from small businesses again and again that 
this is helping them find the right customer at the right time 
in ways that they could not have imagined before.
    Mr. BALDERSON. Okay. Thank you.
    I want to jump to another question because of the time 
limit that we are on here, because I do want to talk about the 
positive things that are created from big techs and from small 
businesses.
    I would like to highlight a recent meeting that I had with 
a constituent in my district who actually, I would not say went 
out of business but pretty much just shut down his business 
that he had prior to that. In doing so, then he changed and 
started up another business, a vintage bookseller business, and 
he used Amazon's tools, including the Fulfillment by Amazon, 
and his business just in the last year has grown 500 percent. 
He has had to expand his work force, and he now ships to 
customers across the U.S. and Canada.
    Would you, both of you, Mr. Mehta, you can go first on this 
one, would each of you please tell this Committee how many 
businesses, publishers, or nonprofits benefit from your 
services that you are aware of?
    Mr. MEHTA. Thank you, Congressman, for the question. That 
story of Vintage Book Art Company is another awesome story of 
many entrepreneurs and small businesses across America.
    You know, currently, there are more than 1.9 million small 
businesses, content creators, authors, et cetera, that are 
small and medium businesses across the U.S. that are partnering 
with Amazon and growing as a result. Interestingly, these small 
businesses have generated more than 830,000 new jobs for 
Americans. So we are very excited both about that specific 
business, but in general, about what we have been able to do 
together with partnerships with small businesses.
    Mr. BALDERSON. Thank you both very much for your investment 
in Ohio. And Madam Chair, I yield back my remaining time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now the gentleman from New York, Mr. Espaillat, is 
recognized for 5 minutes.
    Mr. ESPAILLAT. Thank you, Madam Chair.
    My question goes to Mr. Mehta. I want to touch base on the 
Amazon Storefronts small businesses, approximately 30,000 small 
and medium-size businesses you mentioned in your prepared 
statement, participate in Amazon Storefronts.
    My question is, what is Amazon's practice for outreach, and 
do know the demographic or geographic breakdown of 
participating small and medium-size businesses?
    Mr. MEHTA. Thank you, Congressman, for the question.
    Amazon Storefronts is very exciting. We have 30,000 small 
businesses that are already participating. They have reached 70 
million customers and sold over 250 million items. We have a 
number of different ways we try to reach out to these small and 
medium businesses. It starts with a great deal of online 
content and help. Programs like our Seller University that 
provide courses and training and videos and webinars to help 
these small and medium businesses. Just recently, we announced 
a new Amazon Small Business Academy where we send Amazon 
employees into local communities to sit side by side with small 
businesses as they get started on Amazon and help them as they 
start selling. So we are very excited about Storefronts and 
very excited about Small Business Academy.
    Mr. ESPAILLAT. And when an Amazon searched for product 
yields a result, are these products shown contemporaneously 
with relevant products? Or how does that work?
    Mr. MEHTA. So when a customer places a search result on 
Amazon?
    Mr. ESPAILLAT. Yes.
    Mr. MEHTA. We use the query that they typed in to try to 
find what we think will be the best products regardless of who 
is selling it or how they are selling it, but what we think the 
customer is most likely to want, and we put those in front of 
the customer.
    Mr. ESPAILLAT. And do the results delineate Amazon 
Storefront and those that are not? Is this the same for English 
language searches versus Spanish searches or other non-English 
languages? How is that handled? If I were to search in Spanish, 
for example?
    Mr. MEHTA. Yes. Customers speak many different languages, 
and we try to support them in their native language. And so 
when we design our search results we do think about who the 
customer is and where they are searching and customize the 
search results accordingly.
    Mr. ESPAILLAT. Okay. My next question is what is your 
reimbursement schedule or model for products sold through on 
Amazon for small businesses? Is it uniform or can the vendor 
work to adjust or meet the needs of the industry? Let's say, 
for example, seasonal or employee design? Small businesses 
obviously have very strong constraints very often. How do you 
handle your reimbursement schedule?
    Mr. MEHTA. Thank you, Congressman, for that question.
    On average, our selling partners are paid 7 days after a 
customer receives the product. So, we like to make that very 
quick, as soon as possible after the customer receives the 
product.
    Mr. ESPAILLAT. Thank you so much.
    I yield back my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Let me take this opportunity to thank all of the witnesses 
for taking time to be here and answer our questions. You are 
now excused and we will take a moment while we get our next 
panel set up. Thank you.
    [Recess]
    Chairwoman VELAZQUEZ. I will ask everyone to please take 
your seat. Thank you.
    Welcome to our witnesses on today's second panel. I will 
take a moment to introduce each of you before turning it over 
for your testimony.
    Our first witness today is Ms. Allyson Cavaretta. Ms. 
Cavaretta is an executive leader and part owner of the family 
run Meadowmere Resort on Maine's southern coast. She is a 
third-generation small business owner and graduate of the 
University of Notre Dame, Mendoza College of Business, cum 
laude. Ms. Cavaretta has received the Governor's Award for 
Environmental Excellence, the Innovation Award from the 
Institute for Family Owned Business, and formal bipartisan 
recognition from the Maine State Legislature. Welcome.
    Our second witness is Mr. Molson Hart, the CEO and founder 
of Viahart Toy Company, a retail toy company based in Houston, 
Texas. Viahart has four full-time employees and sold about $4 
million of product on Amazon last year. Mr. Hart speaks Chinese 
and specializes in manufacturing, logistics, and ecommerce. He 
graduated from Dartmouth College with a Bachelor of Arts in 
mathematics and economics. Welcome.
    Our third witness is Mr. Harold Feld, the Senior Vice 
President of Public Knowledge. Before this, he worked as senior 
Vice President of Media Access Project, advocating for the 
public interest in media, telecommunications, and technology 
policy for almost 10 years. Prior to joining MAP, Mr. Feld was 
an associate Covington and Burling where he worked on the 
Freedom Information Act, accountability issues at the 
Department of Energy. He received his B.A. from Princeton 
University and his J.D. from Boston University Law School. 
Welcome.
    Our next witness is Theo Prodromitis. Ms. Prodromitis is 
the Cofounder and CEO of Spa Destinations in Tampa, Florida. 
Spa Destination sells an environmentally conscious luxury brand 
of natural beauty products and was nominated by Amazon to 
receive the 2018 National Retail Federation's ``Champion of 
Retail'' Award. As a business leader, she also consults with 
companies ranging from startup ventures all the way to Fortune 
500 companies. She specializes in the areas of sustainability, 
white space analysis, public purpose partnerships, and fast-
growth businesses.
    I would now like to yield to our Ranking Member, Mr. 
Chabot, to introduce our final two witnesses.
    Mr. CHABOT. Thank you, Madam Chair.
    Our next witness is Mr. Jake Ward, president of the 
Connected Commerce Council, or CCC, a membership organization 
for small businesses powered by digital. CCC works to provide 
small businesses with access to the market's most effective 
digital tools available, provides coaching to optimize growth 
and efficiency and works to cultivate a policy environment that 
considers and respects the interests of small businesses. Mr. 
Ward is the cofounder and former CEO of the Application 
Developers Alliance and Forward Strategies. We thank you for 
being here this afternoon.
    And our final witness will be Graham--could you pronounce 
that last name for me?
    Mr. DUFAULT. Dufault.
    Mr. CHABOT. Dufault?
    Mr. DUFAULT. Yes.
    Mr. CHABOT. Okay. It looks like that, so that makes sense. 
Dufault. Senior director for public policy at ACT, the App 
Association, representing more than 5,000 app makers and 
connected device companies in the mobile economy. Mr. Dufault 
leads public policy initiatives and education in front of the 
Congress on behalf of 5,000 small and medium-size member 
companies. Prior to joining the App Association, Mr. Dufault 
was counsel to the Subcommittee on Consumer Protection and 
Commerce at the U.S. House of Representatives Committee on 
Energy and Commerce. Prior to joining the Committee, he was 
counsel to Congressman Lee Terry, focusing primarily on 
telecommunications and technology issues. He earned his J.D. 
from George Mason University School of Law in 2012, with a 
concentration in communications law. And we thank you also for 
being here.
    I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Ms. Cavaretta, now you are recognized for 5 minutes.

     STATEMENTS OF ALLYSON CAVARETTA, PRINCIPAL AND OWNER, 
 MEADOWMERE RESORT; MOLSON HART, CEO, VIAHART TOY CO.; HAROLD 
      FELD, SENIOR VICE PRESIDENT, PUBLIC KNOWLEDGE; THEO 
 PRODROMITIS, CO-FOUNDER AND CEO, SPA DESTINATIONS; JAKE WARD, 
 PRESIDENT, CONNECTED COMMERCE COUNCIL; GRAHAM DUFAULT, SENIOR 
      DIRECTOR FOR PUBLIC POLICY, ACT/THE APP ASSOCIATION

                 STATEMENT OF ALLYSON CAVARETTA

    Ms. CAVARETTA. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot, and the members of the Committee. I am Allyson 
Cavaretta, a multi-generation small business owner at the 
Meadowmere Resort in Ogunquit Maine. Thank you for the 
opportunity to speak with you today.
    I am here to explain why Google's most recent actions in 
travel present a concern to small business, how those behaviors 
harm the consumer, and to urge relief from Google's near 
monopoly access to market.
    While Google's testimony from July 2019 states that they 
are proud to work with small businesses, that claim is not 
uniform. While Google's examples of an unequal playing field 
for hoteliers range from a 2015 ``pay to play'' book here 
button to currently prohibiting access to the posts and view 
room products. Most recently, March 2019's algorithm change 
prioritizes paid products, reportedly wiped $13 billion in 
market value off the largest players in travel and is harming 
direct bookings with small hotels like mine. The results often 
mislead the consumer to the highest bidder and not to our 
website.
    Google is an unavoidable gatekeeper. Over 93 percent of 
searches begin on Google. Since June, a majority of these 
searches result in zero clicks because Google sends these 
clicks to their own products--YouTube, maps, subdomains of 
Google.com and over a dozen others.
    Our July correspondence to Congress on the March update is 
dated just one day after Google claimed to not engage in such 
practices at a House Judiciary Committee hearing.
    I will focus on the Google My Business Listing product 
commonly referred to as the GMB, and as I will refer to it such 
hereafter, an increasing middle man. Since the March update 
took effect, when comparing May through September this year 
against last year, the following concerns are observed for our 
hotel. A 36 percent increase in visits to that GMB product from 
Google's own search or maps products, but only a 5 percent 
increase in visits to our website from the GMB. A 22 percent 
increase in phone calls to our GMB, but a concerning 33 percent 
decrease in direct phone reservations.
    The click-through rate of 3.8 percent for our listing is an 
outstanding search result, since across all industries an 
average click-through rate for search ads is only 1.91 percent. 
And I cannot help but wonder if Google is able to push the GMB 
performance to outstanding levels by funneling searches to its 
own product complete with ``pay to play'' bookings.
    The transparency into such behavior is a challenge. Our 
hotel deploys urchin-tracking module parameters, commonly 
called UTM codes and that evaluates online marketing. A 
snapshot of UTM tracking for our listing demonstrates a shift 
of over 37 percent in website traffic in just 7 days.
    When Google arbitrarily removes this tracking, a small 
business has limited data. This is in stark contrast to the 
extensive metrics that Google analytics offers, and I cannot 
help but wonder why Google does not subject the GMB product to 
the same metrics that other ads and travel sources are 
scrutinized by.
    This is concerning. We estimate a year-over-year shift of 
over $140,000 in revenue now dependent on this listing in just 
6 months. The speed at which Google is impacting the market 
access for small business and for the consumer is quite 
alarming. From 2016 to 2019, the cost to protect direct 
bookings to our hotel has meant an increase spend of over 500 
percent with Google, and a 20 percent increase in our overall 
marketing budget to keep up.
    And we are not an isolated incident. As my testimony notes, 
over 900 innkeepers representing 47 states and the District of 
Columbia support the points I am making today. There are strong 
incentives to ``pay to play.'' Travel is a lucrative ecosystem 
where consumers rely on digital information. Digital travel 
sales worldwide increased over 10 percent to $694 billion in 
2018. However, the consumer cannot discern that paid products 
like Google's book a room button do not lead to the hotel 
directly. Over 70 percent of consumers believe that they are 
booking directly when, in fact, they are redirected by the bid 
system that is frequently won by online travel agents.
    There are similar concerns with consumers accessing our 
phone number. Nowhere does Google educate the public that 
Google is diverting the consumer away from a small business. 
And while I do not fault them for making decisions on their 
bottom line, the net impact to small business and consumers is 
concerning.
    They loom over innkeepers. The community of small hoteliers 
now has very high cost to market, and a century ago we saw such 
similar things for perishable goods because of the railroads. 
We are now at the end of the line for today's modern 
equivalent, the Internet. I would ask that the Committee look 
to hardwire a fair playing field for hotels and for all small 
businesses.
    And I thank you for listening and for the opportunity to 
present today. I look forward to answering any questions that 
you may have.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Hart?

                    STATEMENT OF MOLSON HART

    Mr. HART. My name is Molson Hart. Almost 10 years ago I 
founded a guy company named Viahart. We have four full-time 
employees, and we sold about $4 million of product on Amazon 
last year and should sell about $5 million on Amazon this year. 
I speak Chinese. I know manufacturing logistics, and ecommerce. 
And with regard to big tech, Amazon is my area of expertise. 
With my testimony, I am going to give you a bird's eye view of 
what it is like to operate a small business in Amazon's orbit, 
as well as answer the questions posed by the hearing summary. I 
will also submit detailed documents for the record that 
describe issues small businesses and consumers face on Amazon, 
what government can do about it, and whether they should.
    To the question, ``Has Amazon created business solutions 
that have enabled small businesses to reach and serve new 
customers?'' The answer to that question is ``Yes, 
absolutely.'' Their Fulfillment by Amazon program solved 
logistical issues for small businesses that previously would 
have required big investments or big headaches. This has 
enabled small businesses to offer less expensive and innovative 
products more easily to American consumers. Everyone, perhaps 
with the exception of brick1and-mortar retailers, has won--
Amazon, small businesses, and consumers. As a result, Amazon 
owns ecommerce. We can talk statistics, but just trust me; for 
most categories, such as books, toys, electronics, home goods, 
and gifts. Basically, everything but cars, food, gasoline, 
luxury, and convenience, Amazon is dominant. In 2018, despite 
selling on eBay, Walmart.com, our own website, and brick and 
mortar stores, Amazon accounted for 98 percent of our revenue.
    So, do small businesses like ours rely on Amazon? Yes, 
completely. When they say jump, we say how high? If Amazon 
suspends us from the platform, we go bust and we go bust fast. 
In 2018, we paid $2 million to Amazon and Amazon's expenses as 
a share of our revenue on Amazon have gone from 33 percent in 
2013 to 50 percent in 2018. That said, we have been profitable 
and our sales have grown 37 percent every year over that 
period.
    So, do small businesses have an opportunity to compete in 
the information age? It is not easy, and we work hard, but we, 
as a small business, have done all right. So yes, we do have an 
opportunity to compete amongst big tech. But is the playing 
field fair? The answer to that is like a Facebook relationship 
status, it is complicated.
    If we compete against Amazon, we operate at a massive 
disadvantage, but provided they do not engage in underhanded 
tactics, that is okay. It is capitalist competition. If Amazon 
Basics knocks off one of our products, provided they did not 
commit IP infringement, it is unfortunate, but it is okay. On 
balance, while they certainly make their fair of mistakes, 
which I describe in my additional submission for the record, 
and while they sometimes focus on what is legal rather than 
what is ethical, they are a good company.
    They are also an engine for innovation. As such, we as a 
Nation should take great care in legislating or regulating this 
giant, but also fast-moving and innovative company.
    Like in the Hippocratic Oath, we should first do no harm. 
IN keeping the metaphor, it is said that sunshine is the best 
disinfectant. By shining light on the issues, we can compel 
Amazon to do a better job in addressing them. Since selling on 
the platform, I have seen them make great strides towards 
improving their marketplace for honest sellers and consumers. 
While I do think there are some areas where legislation and 
regulation is appropriate, in general, here, the threat of it 
is stronger than its execution.
    We can do better for American consumers, American small 
businesses, and the entire United States by preceding with 
caution and introducing narrow legislation that addresses the 
nagging problems on the platform.
    My additional submission for the record not only describes 
these problems in detail, but also suggests legislative 
solutions that can win bipartisan support and better American 
for all stakeholders.
    So let's do it. And let's do it now.
    We have a unique opportunity in time to improve our country 
by doing so, and I look forward to working with you to make it 
happen.
    Thank you for this opportunity, and I welcome your 
questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Hart.
    Mr. Feld, you are recognized for 5 minutes.

                    STATEMENT OF HAROLD FELD

    Mr. FELD. Thank you, Chairwoman Velazquez, Ranking Member 
Chabot, thank you for having me here today.
    In a world where people find restaurants by asking their 
phones to show them the best reviewed places on their map apps, 
where people research their purchases and comparison shop 
online, and where viral video or tweet can make you famous in a 
good way or a bad way, we must acknowledge the impact of big 
tech goes well beyond startup garages in Silicon Valley.
    Big tech impacts every Main Street in America. Digital 
platforms are only the latest technology to transform how we do 
business. Just as it is impossible to imagine our economy 
without the ability to ship goods anywhere or to operate 
without electric power or to manage without credit cards, money 
transfers and global communication systems, it is impossible 
now to imagine a small business without somehow interacting 
with big tech.
    As with these previous technologies, Congress must set 
rules of the road that protect small businesses from anti-
competitive abuse and provide the stability necessary for 
investment and for commerce to thrive. We have seen in the last 
few years a growing stream of credible allegations that the 
largest online platforms have used their dominant position to 
favor their own products, unfairly undermine competitors or 
extract concessions from small businesses with no real 
alternatives.
    For example, Amazon has been accused of altering its 
recommendation algorithm to suggest purchases based on what 
maximizes profit to Amazon rather than what consumers would 
most like to purchase. Google was found guilty in the E.U. of 
favoring its affiliated products in its shopping act. Facebook 
has been accused of denying access to potential competitors, 
such as Vine, and extracting concessions from applications 
developers once they were locked into the platforms. The 
companies deny some of these accusations but the list continues 
to grow.
    But even more troubling are the growing number of cases 
where giant digital platforms hurt small businesses entirely by 
accident or when trying to do the right thing. If this were 
simply about finding and punishing a few bad apples, we could 
leave this to existing law. But what could a small business do 
when a fake complaint by a rival can get them kicked off Amazon 
with no notice, effectively shutting down their business? Or 
when a decision by YouTube to change its monetization policy 
can bankrupts thousands of small creators at once?
    Congress must step up as it has done in the past, as it did 
when access to railroads or to reliable banking services or to 
electric power became essential inputs for small businesses. 
Congress must set some basic rules of the road that ensure that 
everyone gets treated fairly. Ideally, Congress would create a 
comprehensive statute addressing digital platforms and a new 
expert agency to enforce it.
    Digital platforms are a unique sector of the economy 
subject to powerful network effects that make them prone to 
concentration. At the same time, many of the things that create 
the capacity for competitive harms also create the capacity for 
significant consumers and business benefits. A sector-specific 
regulator is best equipped to investigate concerns and strike 
the proper balance.
    Public knowledge recognizes that this is an ongoing 
process. We therefore urge Congress to focus in the short-term 
on the following four things as most important to protecting 
small businesses and promoting competition.
    One, nondiscrimination. Search and recommendation 
algorithms should great everyone fairly, not based on how much 
profit goes to the platform or app store.
    Two, interoperability. Small businesses and potential 
competitors with the platform should have the ability to plug 
and play without interference from the platform.
    Three, protection of proprietary information. Small 
businesses expose sensitive information as part of their 
dealings with digital platforms. Platforms should not be able 
to exploit that access.
    Four, due process. Businesses need sufficient notice to 
plan and the right to correct mistakes that can cost them their 
business.
    Thank you, and I am happy to answer any questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Feld.
    Ms. Prodromitis, you are recognized.

                 STATEMENT OF THEO PRODROMITIS

    Ms. PRODROMITIS. Thank you. Thank you, Chairwoman 
Velazquez, Ranking Member Chabot, and all the esteemed 
Committee members.
    My name is Theo Prodromitis. And I am a family member of 
Greek immigrants, U.S. veterans--very proud veterans--and 
entrepreneurs. You could say entrepreneurship is in my DNA. And 
I grew up working in our family businesses. So all of this talk 
in the Committee about small businesses, I am one of them. I 
have also had the great pleasure on being the National Retail 
Federation's Small Business Advisory counsel, and in that 
capacity have gotten to work with thousands of different small 
businesses, understanding their pain points.
    But for the topic today, I will talk about the product line 
that I launched called Spa Destinations. In 2003, we launched 
our line of personal care products, but in 2008, something 
happened and we had to downsize and pivot. One of our big 
issues at that point, in addition to the economy, was the 
impact of the market flooded with subpar Chinese imports. And 
our $20 premium natural sponge that was hand selected and 
harvested from the Gulf of Mexico as a natural renewable 
resource, now suddenly could not compete with a $2 synthetic 
sponge imported from China. And that was the impact it had on 
us because we needed somewhere to tell our story.
    So in 2014, we heard about selling on Amazon. And all of 
our colleagues thought we were crazy. They thought Amazon was 
the competition or the enemy and they told us not to do it. 
Luckily, we did not listen. So we started small, and it was 
$39.99 to get a seller account, and we started listing some of 
our products on Amazon. And eureka. Our business started to 
grow over and over again because we featured in on the Amazon 
democratizing opportunity, which is the best brand wins. It is 
not just price; it was the fact that we could actually tell our 
brand story on a platform and they gave us access to their 
millions and millions of customers.
    So Amazon provides conferences and Seller University. 
Everything we need, it is a really robust platform that gives 
us access, and there are people there 24/7 to answer our 
questions. Yes, we have the same business challenges everybody 
does, but now we have a logistics expert that allows us to 
actually focus on product innovation and investing in our own 
businesses, growing our own staff, and doing the things that we 
need to do in our small business on this platform. They make a 
lot of the services very affordable and give small businesses 
and premium brands, like myself, a voice.
    Noteworthy is that Amazon, of course, does disrupt 
industries and categories, and we all know that. So, for 
example, when they disrupted the delivery with Prime, it got 
everybody to innovate. And everybody sort of stepped it up. And 
they started delivering faster because Amazon focuses and holds 
us accountable to a customer-centric model where we have to put 
the customers first. And Dr. Kennedy's testimony said that in 
the most competitive environment and my 30 years' experience in 
retail, the most important thing is that the customer is 
treated fairly. And they also created a professional beauty 
category to actually decrease the number of counterfeits and to 
address some of the issues with the market being flooded with 
used products or substandard products.
    So in conclusion, there are a few important statistics I 
just wanted to reiterate. One is that as part of the National 
Retail Federation, one of their published statistics is that 10 
percent of retail sales, only 10 percent, are done online. So 
there is still a huge additional market. It seems like it 
eclipses everything else but it only accounts online sales for 
10 percent of all retail. And, of course, the one that matters 
to me the most is that the Amazon platform and building our 
business after the downsizing in 2008 has given me the 
opportunity to grow a multi-million dollar business, take care 
of my kids, and to grow and innovate and focus on what my 
expertise is in partnership with Amazon. Thank you.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Ward?

                     STATEMENT OF JAKE WARD

    Mr. WARD. Madam Chair, Ranking Member Chabot, members of 
the Committee, on behalf of the Connected Commerce Council and 
our members, it is good to be with you again today.
    The Connected Commerce Council is a nonprofit membership 
organization for digitally empowered small businesses. We 
believe that access to digital tools gives small businesses the 
best opportunity to succeed. This belief is informed and 
affirmed by each of our more than 2,500 member companies and 
supported by the numbers. In fact, a recent Deloitte study 
illustrates what our members would tell you, that small 
businesses that leverage digital tools have higher revenue, 
twice the profitability, and create three times as many jobs.
    It is a privilege to be with you today and to share their 
perspective and the stories of some of these businesses. 
Stories like that of a Utah-based startup that invented an all-
in-one bedding set that makes it easy for kids, and adults, to 
make their bed every morning. And for those of us who have 
attempted to make a bunkbed, this is an innovation on the level 
of the wheel and sliced bread.
    Even then, breaking into the traditional retail market and 
competing against global giants is nearly impossible. With a 
quality product, a simple website, well-placed ads and access 
to online marketplaces, Beddy's is now a thriving company 
employing dozens of people and serving a global customer base.
    While Beddy's is an exceptional company, their success is 
not an exception. Digital services, platforms, marketplaces, 
help tens of millions of small businesses start, grow, and 
succeed in previously unimaginable ways. These tools provide 
lower cost options specifically designed to provide small 
businesses with more accurate, measurable, and efficient ways 
to enter into a market. And most importantly, those tools give 
small businesses a fighting chance, not only because of the 
scale of the platforms but also against some of those large 
companies.
    For our part, it is hard to imagine a more competitive 
marketplace. The largest, most innovative companies in the 
world compete fiercely to reach tens of millions of American 
small businesses. As a result, their prices are low, their 
products are innovative, and the business is good. In turn, 
small businesses use these tools and marketplaces and platforms 
to compete with one another, with larger companies, and with 
businesses in countries around the world. The result is more, 
better, cheaper products for consumers everywhere and a more 
vibrant economy here at home. This is what a healthy market 
looks like. It is working.
    I am not here to defend big tech today or to speak to the 
interest of those companies. They are more than capable of 
defending themselves. I am here today to defend small 
businesses from the unintended consequences of overreacting, to 
defend an ecosystem in an economy that is working, and to speak 
up for tens of millions of American businesses whose 
livelihood, whose peace of mind, and whose bottom lines have 
been well served by digital tools and the companies that 
produce them.
    CCC's concern is that we too often only focus on the 
largest companies, missing the forest through the trees. The 
idea that regulators and policymakers are investigating free 
and low cal services that power small businesses confuses and 
frustrates many of our members. Access to digital tools is 
essential for American small businesses, not in concept or in a 
legal sense, but in reality. As you know, the answer to many of 
these challenges is for policymakers to speak with small 
businesses rather than simply talking about them.
    I would like to thank you, Madam Chairwoman, Representative 
Chabot, and this Committee for your leadership in welcoming 
small businesses to the table today, because if asked, small 
business owners will tell you the challenge of every small 
business is unique, but their stories are universal, and that 
those challenges force small businesses to be early adopters 
and to adapt quickly where others are too large or too 
complacent to take advantage. They would tell you that access 
to affordable, secure, and scalable tools unleashes the 
potential of American small business and that the value of that 
access is measured in new employees and increased financial 
security. Every small business owner knows that starting a 
business is an act of faith, that running one is a matter of 
perseverance, but success requires luck and a lot of help. 
Today that help comes in the form of global platforms and 
services providers.
    Digitally empowered small businesses stand on the shoulders 
of large companies to reach otherwise unattainable heights. 
Platforms invest in scalable, secure, affordable tools. 
Marketplaces connect buyers with sellers and the guiding 
principles of the digital economy, speed and scale, 
consistently drive shared value and mutual benefit for small 
businesses. Innovative technologies and approaches are widely 
available, easily adopted, and quickly improved upon.
    Now is not the time for political opportunism or 
gamesmanship. The stakes are too high and the issue too 
important. The partnership between big tech and small 
businesses are built on mutual benefit. Discussions about 
balancing that benefit are warranted and welcomed, but we 
should also consider the harm changes to the current ecosystem 
could have on an American small business economy that is 
thriving.
    On behalf of tens of millions of digitally empowered small 
businesses, thank you for welcoming us today. I look forward to 
answering your questions.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Dufault, you are recognized.

                  STATEMENT OF GRAHAM DUFAULT

    Mr. DUFAULT. Good afternoon. My name is Graham Dufault, and 
I represent over 5,000 small businesses that build the software 
programs that bring your smart devices to life. Thank you for 
hosting this important hearing and for listening to the voices 
of small businesses in this debate.
    The App Association's primary focus here is on the mobile 
software market, and that includes the relationships between my 
member companies and big software platforms.
    You heard on the first panel about some really big numbers, 
billions of people, trillions of dollars that are impacted in 
all of this but I want to focus on the smaller numbers, the 
father-son team of two at Micro Integration Services in 
Medford, New Jersey; the team of 17 at Hashrocket in Ohio, 
Florida, and Illinois; and the team of five in Duluth, 
Minnesota, at Creative Arcade. These are small numbers but they 
add up in your districts to a really powerful engine of growth. 
And we want to preserve that.
    Chairwoman Velazquez, in your district there is a teacher 
who created an app called Chaperone. It helps organize school 
field trips in real time. She is a problem solver and the App 
Store platform helped her create a solution there.
    Ranking Member Chabot, the team at Canned Spinach in your 
district created the augmented reality solution for Toyota so 
that shoppers can virtually experience cars from their smart 
devices.
    And so how did big tech help small companies, these small 
companies that I just mentioned? Let's go back in time.
    Back in 1998, it could cost up to about $10 million to get 
a software company off the ground. Now, 21 years later, it 
costs about $100,000. From an investor's perspective, a $100 
million investment fund can go toward a lot more companies now 
and it can go toward market disrupters as opposed to sort of 
the sure bet, the pre-IPO incumbent.
    So how has a platform made these radical changes possible? 
I point to three things. One, reduced overhead. Two, a trusted 
space. And three, immediate access to billions of consumers 
around the world. And so in this case, the fact that platforms, 
software platforms especially, are household names, has 
actually helped lead to the democratization of entrepreneurship 
here.
    Of course, for software companies, coming by trust is a 
pretty expensive proposition. Even now when you download a 
software program it can be glitchy, it can give your computer a 
virus, and so a trusted source is extremely valuable.
    Back in the `90s, it used to be necessary for some 
developers to sign over their rights to publishers just to deal 
with that trust issue. And so platforms have changed all of 
this by creating a trusted space where users know that their 
devices will remain secure. Not only that, they have done it in 
a way so that consumers and developers can transact directly.
    Each of you probably has a smartphone in your pockets, and 
if you are like the average American you have somewhere between 
60 and 90 apps. The vast majority of those are made by small 
businesses that you have never heard of, so why is it that you 
trust the software that they have created enough to download 
it? The answer is because the platform has created a dependable 
environment for you to do that.
    Of course, it is not all sunshine and roses. Platforms need 
to improve in important ways and we are very glad that the 
Committee is conducting this inquiry so that we can understand 
the competitive forces at work.
    Our developers need a few things from platforms. Number 
one, they need developer guidelines and any changes made to 
them explained clearly so that developers know what the changes 
are going to mean for them. And number two, we need safety and 
security. Some have control over device security and other 
platforms do not. But measures should be in place to ensure 
that consumers and developers alike are protected. And number 
three, platforms should diligently respond to even the smallest 
developer when they see that their content has been stolen by 
another developer on the platform.
    Right now, platforms are fighting for our business. This is 
an ideal state of affairs and it is a sign that competition is 
alive and well, at least in the app economy here.
    So from Congress our asks are simple. Number one, even by 
the most conservative estimates, 20 million Americans still 
lack access to broadband. I have a colleague from Orrington, 
Maine, who is just 6 miles out of Bangor, actually, and her 
parents still use dialup. Dialup is still being used 
everywhere. All over the place here in the United States it is 
still an issue. We thank the Committee for the efforts that you 
guys have embarked on to ensure that broadband is deployed to 
the hardest to reach parts of America.
    Number two, we appreciate the Committee's efforts to ensure 
that Small Business Administration programs do what they are 
supposed to do, and we want to urge you to continue that work 
to ensure that tech-driven businesses like my members have 
access to those support mechanisms as well.
    And then finally, we urge you to provide adequate resources 
for workforce training programs so that we can fill the 500,000 
computing jobs that are open right now in this country.
    And so thank you again for the opportunity to appear here 
before the Committee, and I look forward to your questions.
    Chairwoman VELAZQUEZ. Thank you. Thank you all for your 
testimonies.
    Let me just share with you that in this Committee we work 
in a bipartisan way. There is no republican or democratic 
approach when it comes to issues that are impacting small 
businesses. We are committed to accountability. When we have 
Amazon and Google come before us and we pose questions 
regarding the treatment or the unlevel playing field for small 
businesses to be able to compete and not be put at a 
disadvantage and they tell me that they know because they do 
internal testing, well, it is not only about internal testing; 
it is about accountability.
    I believe it was Congressman Hern who raised the issue, who 
is watching over you? Who is holding you accountable? That is 
what goes to the heart of the issue here.
    Ms. Cavaretta, it is my understanding that over 96 percent 
of all hotel room bookings that take place through online 
travel agencies go through two companies, Expedia and 
bookings.com. They then pay millions of dollars to Google which 
controls 90 percent of all Internet searches. It seems to me 
that if you are a travel company looking to reach consumers, 
all roads lead to Google.
    Can you expand on how this happened and discuss how it 
impacts small businesses and ultimately consumers?
    Ms. CAVARETTA. Certainly, Chairwoman. I would be happy to 
address that today. First off, thank you very much for the 
hearing and the opportunity.
    Two things come to mind with your question. First, when 
over 70 percent of consumers believe that they are booking 
directly with a hotel, when, in fact, they are redirected by 
Google's book a room button to the highest bidder, the 
traveling public is being misled. It's misdirection to that 
highest bidder, and often it is to the highest bidders of those 
two companies that you mentioned. Or it is one of their mass 
subsidiaries. I think Google can get to over 18,000 of 
Expedia's sites, and they have that many. Or even worse; it 
could be a fraudulent fly-by-night site and you have an online 
booking scam.
    Second, our small business has to pay now to try to have 
our phone number found in searches. And those searches spiked 
over the last 6 months since its recent update. And it is still 
not being found as the data shows. So that secretive algorithm, 
the transparency that you are so concerned about, it determines 
whether or not we have our call extension shown, even if we are 
paying for it or not.
    So if the consumer is directly searching for our phone 
number, the net effect is that Google has moved the ability for 
it to be found by the consumer into a play to play space.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. CAVARETTA. You are welcome.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Hart, you rightly recognize that Amazon has created 
business solutions that have enabled small businesses to reach 
new customers, solving logistical and transportation issues for 
millions of small firms. You also acknowledge Amazon could do 
better. What are your targeted ideas to ensure that companies 
like Amazon, and other large tech companies like them, are not 
using their market power to put small businesses at a 
disadvantage?
    Mr. HART. So at this point, I think the best course of 
action would be narrow legislation coming from Congress to 
address some of the nagging problems on Amazon. And I laid some 
of them out in my additional submitted testimony.
    For example, there is a law called the DMCA, where if 
someone files an allegation of copyright infringement, the 
defendant as it were has the right to submit a DMCA counter 
notice for that copyright infringement and kind of say to the 
person who is saying that you are infringing on the copyright 
say, look, if I am infringing on your copyright, you have got 
to sue me. I think that that legislation should be extended 
toward trademarks and patents, and I think that that would 
clean up the marketplace enormously.
    The reason why is that there are a lot of brands in the 
United States that make allegations of trademark incentives 
toward companies that are selling on Amazon that are selling 
authentic goods. They want to keep their prices high. They do 
not want the competition on Amazon so they say that that guy, 
you know, who is maybe in Ohio, maybe who is in rural Ohio who 
is selling products, that person is selling inauthentic goods 
when, in reality, they are not. Amazon in some cases, they may 
make the wrong decision, they may make the right decision. We 
will suspended that seller from the platform. I think that is a 
pretty good example of how we could fix that problem. That 
problem has existed for 3 to 5 years, maybe even longer on the 
Amazon platform, and they have not really done anything about 
it. So I think at this point we could use some legislation, and 
in my initial submission, there are a whole host of other ideas 
like this that improve the platform.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Feld, how should Congress approach ensuring small 
businesses are treated fairly on this large platform?
    Mr. FELD. I have a number of specific suggestions. I think 
it is exactly that there needs to be somebody who can check. 
There needs to be somebody who has the authority to go in and 
ask questions. At the same time, the companies' proprietary 
information needs to be respected. You do not want to expose 
the search algorithm itself because you do not want people to 
be able to hack it for illegitimate purposes. There are other 
suggestions in my written testimony, and I am happy to 
supplement because I see I am running out of time.
    Chairwoman VELAZQUEZ. Thank you.
    You listened to the companies that were here today. Do any 
of you have any reaction to any point that was raised or any of 
the answers that were provided by either Amazon or Google?
    Mr. Feld?
    Mr. FELD. I do want to address this point that Amazon makes 
about comparison of their own label with traditional 
supermarket labels because it is not really a fair analogy. The 
problem here is that Amazon works much more as a distributor 
than as a retail market. If I go to a supermarket, yes, there 
is generic brand label on the shelf but I also see all of the 
other products. If I am in the pet food section, for example, I 
see all of the other cat foods. And if I am on Amazon, however, 
I only see the products that are displayed in the very small 
space which there is for a display. Furthermore, the 
supermarket only knows the sales that it makes. It orders an 
inventory. It brings that in. It knows the specific sales it 
makes. It may have information about the customers that it 
sells to. Whereas, Amazon takes in a great deal more of 
proprietary information in the same way that a distribution, a 
national or global distributor does. Again, it is not quite 
like a distributor either but I recommend in the testimony and 
I have recommended in my book, The Case for the Digital 
Platform Act, which is available on Amazon, which as I point 
out is not hypocrisy. It just proves my point. But that there 
are many situations that we have like this, such as shippers 
and telephone companies that we have rules that govern this.
    Chairwoman VELAZQUEZ. My time has expired. I am sorry. If 
not, Mr. Chabot is going to be--then he is going to say that I 
am too partisan here, and I am not. Mr. Chabot?
    Mr. CHABOT. I would never say such a thing.
    Just to be clear though, we did agree, that was about 7 
minutes.
    Chairwoman VELAZQUEZ. Correct.
    Mr. CHABOT. So we get it.
    Chairwoman VELAZQUEZ. Yes. That is what I got.
    Mr. CHABOT. Okay, thank you. Thank you.
    I am going to ask Mr. Ward and Mr. Feld, obviously, one of 
the things that Congress is considering is should we get 
involved relative to regulations of the tech platforms and that 
sort of thing. And if we were on a scale say of zero to 10, 
zero being leave it as it is, do not do anything, to 10, being 
a heck of a lot of regulations, as much as necessary, Mr. Ward, 
Mr. Feld, I do not care who goes first, but make your best 
argument as to where that number ought to be and where. So 10 
is a lot of regulations, zero is no more than we have now.
    Mr. FELD. Well, I think you have to have as much as 
necessary. I mean, that is kind of like how high is up? I think 
that the current situation is an atmosphere that creates 
distrust by small businesses that create situations where they 
cannot resolve their problems, where very real problems are 
being created, where businesses are being hurt by accident, 
where the platforms are trying to do the right thing and cannot 
because they involve complicated tradeoffs. So I think Congress 
needs to make a number of important decisions. I do not think 
that necessary equals lots and lots of regulation but I do 
think that it means that Congress needs to create an authority 
that is empowered to, you know, an umpire to call balls and 
strikes. That is not a lot of work. That is calling balls and 
strikes but it is pretty important to do.
    Mr. CHABOT. Okay. Can you put a number on it?
    Mr. FELD. No.
    Mr. CHABOT. Okay.
    All right. Mr. Ward?
    Mr. WARD. Two.
    Mr. CHABOT. Okay.
    Mr. WARD. I think in the lifecycle of platforms and big 
tech companies we are in the Model T stage. You know, this is 
just the beginning. We are seeing the market do what the market 
is supposed to do. We frankly are so far afield from what real 
capitalism is supposed to look like it scares us a little bit. 
I, on behalf of my members, reject out of hand the idea that 
small businesses distrust the platforms. I think that the vast 
majority of growth in the small business community is because 
they do trust the platforms. There is certainly a backlash 
against large tech companies over the last 3 or 4 years for 
reasons outside the perspective of competition, and there is 
sort of a triangulation around the idea of data and privacy and 
competition that is all coming together at once. And that is 
understandable and reasonable, and we should all dig into that.
    But I think historically we know that one of the primary 
drivers of innovation in this country is not government 
intervention. Right? What Google and Amazon need to figure out 
better ways to service small businesses is not government 
bureaucracy. I also think the FTC would be a little insulted 
that we need somebody else to call balls and strikes.
    And lastly, regulatory capture is very real threat if we go 
down this road. There is a continuing evolution in big tech, 
faster cycles than we have ever seen. That is just the nature 
of the universe that we live in now. Let's give the market a 
chance to catch up and surpass and reorder some of these 
companies before we have Congress do it.
    Mr. CHABOT. Thank you.
    Mr. Dufault, let me go to you next. I think you said you 
have about 5,000 apps in your organization. How many apps are 
there? I know that is a hard number to know, but do you have 
any idea how many there are out there?
    Mr. DUFAULT. The major platforms, you have more than 2 
million that are broadly available to the public. So there is 
going to be more than that. I think that is the latest count 
for the Apple App store and the Google Play store. So there are 
more than that. There are more than just those two platforms is 
the thing that we have to recognize. And even our member 
companies are on Microsoft's platform. They are on App 47, 
which is an enterprise platform that most people do not think 
about because it is really just enterprise-facing work. And so 
I will point to that and say, you know, definitely over 2 
million but it is hard to count at this point.
    Mr. CHABOT. Thank you.
    If an ad or something pops up on your iPad or your iPhone 
or whatever, is there an accepted size that the X is supposed 
to be on there? Is there best practices or is there anything 
like that?
    Mr. DUFAULT. You are talking about the ads?
    Mr. CHABOT. It is really hard to find sometimes.
    Mr. DUFAULT. The ads or the----
    Mr. CHABOT. Yeah. Say an ad pops up and you want to get rid 
of the ad.
    Mr. DUFAULT. Right.
    Mr. CHABOT. And, you know, there is an X where you can X 
out and get rid of that ad and look at what you went on there 
to begin with. Is there an accepted size or is there a 
standard?
    Mr. DUFAULT. There are some standards. I know that the 
Digital Advertising Alliance which is sort of a partnership of 
advertisers tries to standardize the size and make sure that 
there is an opt in for advertisers so that you can provide the 
X. I think I know what you are talking about. It is a little 
blue X in the top right corner; right?
    Mr. CHABOT. Yeah, usually up there. And just to get rid of 
it if you want to.
    Mr. DUFAULT. Right.
    Mr. CHABOT. Along those lines, oftentimes you are given two 
choices on this particular thing that you did not go to, that 
popped up. You know, it is either like do it, whatever it 
wants, or do it later. Well, I do not want to do it at all, so 
they do not give you an option. Or there is no X. You know, I 
do not know that there is any regulations on that but that is 
one I might just support to do something about that.
    Let me go to you, Ms. Cavaretta. You, excuse me, I know you 
had your battles with Google. What, if anything, did they do? 
Did they offer to do anything? Did you confront them? And if 
so, did you get any answer at all?
    Ms. CAVARETTA. In short? No. They have not approached me, 
and they are not approachable.
    Mr. CHABOT. And you could not get them, I mean, basically? 
Okay.
    Mr. Hart, let me go to you next. You mentioned that--I 
think you said 50 percent of sales basically goes to Amazon; is 
that correct?
    Mr. HART. Yeah, that is correct. If we sell a dollar on 
Amazon, as of 2018, we pay 50 cents of that dollar to Amazon.
    Mr. CHABOT. Okay.
    Mr. HART. In 2013, it was 33 cents.
    Mr. CHABOT. Okay. And what services do you get in return 
for that? Do they break it down for you or what?
    Mr. HART. Yeah, they absolutely do break it down for us. So 
the first thing is we pay a 15 percent commission on every 
product that is sold on Amazon. For some of the products we 
sell, we pay Fulfillment by Amazon fulfillment fees. They range 
from $5 to $10 depending on how heavy the item is. We pay a ton 
of money. As I recall, in 2018, we spent about $180,000 on 
sponsored advertising on Amazon. That kind of works the way 
Google Ad Words advertising does. When you search, you will see 
a sponsored product. We pay money in the form of storage fees. 
A whole host of things. When you add them all up, in 2018, it 
added to about 50 percent.
    Mr. CHABOT. Thank you.
    Chairwoman VELAZQUEZ. Would the gentleman yield for a 
second?
    Mr. CHABOT. I would be happy to yield to the Chair.
    Chairwoman VELAZQUEZ. Mr. Hart, was I correct or incorrect 
when I made the comment to Amazon that in order for a search to 
show a small business product that if you pay ads then you will 
show up on the first page or second but not----
    Mr. HART. Yeah. In 2019, at this point, it is enormously 
difficult to have your products appear on Amazon without paying 
Amazon for advertising. It depends. It varies by category, but 
if you do a random search on Amazon, your top eight results in 
many cases will be advertisements. They will be advertised 
products. If you go back to 2013, Amazon did not even have 
advertising. So that is one of the ways that Amazon's expense 
share of our sales has gone from 33 percent to 50 percent.
    And I know you guys have limited time, but if I could, I 
would love to respond to some of the questions and things that 
were said earlier.
    Mr. CHABOT. My time is expired. I will yield back at this 
point.
    Chairwoman VELAZQUEZ. Okay. The gentleman yields back.
    Mr. Evans from Pennsylvania is recognized for 5 minutes. 
You will have 2 extra minutes if you want to listen or allow 
the gentleman to be able to react.
    Mr. EVANS. Thank you, Madam Chair.
    I want to piggyback a little bit on the Ranking Member and 
what he said between zero to 10 and go by the previous person, 
I think it was Mr. Kennedy. And he raised the issue that it 
should be about the consumer. And I have not heard that. That 
is what I am most concerned about is the concern. So I heard 
one gentleman say two and I heard the other one did not want to 
give a number. But how does all this relate to the consumer? I 
mean, it is about credibility and integrity. So I am hearing 
about the search engine, but the consumer, I mean, the consumer 
does not have the ability to have access to this information.
    So Mr. Feld, I am interested, and the other gentleman, Mr. 
Ward, I think it is.
    Mr. FELD. This is one of the big issues that makes the 
digital platform sector unique. It has what I call perfect 
asymmetry of information. Meaning if I am the user, I have no 
clue what is going on there.
    Mr. EVANS. Right.
    Mr. FELD. I have to trust. Now, one of the ways is if I 
start getting good search results, you know, that they are 
relevant, then that is all fine. But the problem is when you 
are talking about a business perspective, there are a lot of 
hotels that are relevant to me if I am looking for a vacation 
in Maine. I do not happen to know what is the ideal one, and if 
somebody is paying, it is kind of like if you are listening on 
the radio, I do not know if it is a payola thing where somebody 
is paying for play or if it is really that the DJ thought that 
that was a cool song.
    Mr. EVANS. Right.
    Mr. FELD. And that is why Congress passed the law that 
says, you know, no payola. You have to pay if it is being 
sponsored. So there is a similar problem here; there is just no 
way for the consumer to know, and I agree with Ms. Cavaretta 
that it is a real problem, that it is deceiving the consumer to 
some degree if it is not factors that the consumer thinks the 
search ought to be based on.
    Mr. EVANS. Mr. Ward, your response?
    Mr. WARD. Yeah, sorry. The idea of consumer harm, and 
again, I am not a lawyer but I will play one on TV for a 
minute, is an FTC term. I think it is Article 5. It is the idea 
of price discrimination or deception, neither of which are 
particularly applicable when the product is free. Now, it is 
true that free is a price, that you have to build into the idea 
that your search result has a value to somebody the same way 
that it would if you were shopping for something else. But 
again, the market is going to do what the market is going to 
do. And we are taking for granted that this did not even exist 
23 years ago. When we wanted to go on vacation in Ogunquit, we 
would ask somebody that we knew that had been there. And that 
was the quality of the search that we could do. In this case, 
it does not take too many clicks to look at ratings, Yelp 
reviews, particular feedback from people that have actually 
been there. You can make a call or two. All of that is 
accessible because of the investment that was made from these 
companies to give that power to us. If we are not willing to 
use it, that is on us, not them.
    Mr. EVANS. Are you still holding to your position based on 
the Ranking Member of being a two when I add the aspect of the 
consumer? Because remember, the consumer is trusting this 
information, and the consumer does not really know. Because 
through marketing of this----
    Mr. WARD. Sure.
    Mr. EVANS.--advertising, the consumer makes the assumption 
that I am getting the best--you wanted to say something, too. 
So I have got about a minute, and so you have got to make it 
quick. I want to get over to the----
    Mr. WARD. I believe Ranking Member Chabot's question was on 
a scale of 1 to 10, how urgent is it that government get 
involved and my answer was 2.
    Mr. EVANS. You said 2; correct.
    Mr. WARD. That is still the case.
    Mr. EVANS. Okay, even about the consumer.
    Do you want to comment on that?
    Ms. CAVARETTA. Thank you, Congressman Evans.
    I would say that if you looked at your search results as a 
consumer, you had about 900 pixels that was going to be 
relevant to your organic search result and you are down to 
about 360, 390 that is organic and the rest of it in Google is 
now all pay to play product. That is a lot of real estate that 
is gone that they are making money off of.
    But you know, just this past weekend I can tell you that I 
had customers who thought they booked on booking.com, and they 
did, but really it came through another third party because 
they did site scraping. And the customer had no idea that they 
had two middle men in between their reservation or not. And 
what happens is they do not know who they have actually booked 
with. And that is a problem when they want to change their 
reservation. If it is a fly-by-night site. And that is 
happening often. I send about two cease and desist letters 
every summer to fly-by-night companies that are scraping off of 
sites and causing fake bookings. And that is a real problem, 
and it is enabled by this environment where there is lack of 
clarity around those reservation buttons.
    Mr. EVANS. I will yield back the balance of my time.
    I want to say to you, Madam Chair, it does seem like the 
Wild West for the consumer. Now, we are talking about the 
consumer who does not have the knowledge that we are seeing 
here and do not have a chance. And here the consumer looks like 
they are in trouble.
    Chairwoman VELAZQUEZ. Since I allotted 7 minutes for the 
gentleman, I will allow Mr. Hart and Ms. Cavaretta to react to 
any of the answers that were provided previously by the 
companies that were here.
    Mr. HART. Just briefly. I think there are some narrow areas 
where Amazon does have policies that do lead to consumer harm. 
This is not an example of it but just to kind of frame the 
conversation.
    So we were talking about how I was paying 33 cents for 
every dollar in 2013; now it is 50 cents for every dollar in 
2018. We raised prices. So that is a little bit of consumer 
harm right there. But that is not an Amazon policy necessarily.
    Returning to the comments earlier, Ranking Member Chabot, 
you said that exports are important to you, and I obviously 
agree. Everyone does. One really great way to solve that 
problem would be to bring equity to the Chinese e-packet 
situation. And I can explain what that is if you like.
    Basically, it is just considerably more expensive for us to 
ship our products to the United Kingdom versus a seller in 
China. Considerably. Like 10 times the cost. And that inhibits 
our exports.
    Congressman Golden, you asked a question to Mr. Mehta about 
whether or not you need to store your goods in Fulfillment by 
Amazon. This is not necessarily something that is unfair or 
bad, but in order to get sales, you absolutely do need to store 
your products in Amazon's warehouses in order to get that Prime 
check.
    The punishment for late delivery, Amazon makes late 
deliveries all the time. A lot of us are Prime members. This 
probably happened to you. You can fight for like maybe a $5 
promotional credit or something like that. We ship out of our 
own warehouse. If we are late, we can get suspended, which is a 
rather more onerous punishment. Now, if Amazon is late, in some 
cases you can like kind of edge your way into a refund of some 
sort. This is another example of consumer harm. And Amazon is 
very generous with how it refunds the consumer in that case. 
But it turns out in a lot of cases, my company will be footing 
that bill. So they will deliver our product late but we pay for 
the refund even though it was not our fault.
    Respectfully, Ms. Prodromitis, I know hundreds of Amazon 
sellers, and I would say that her view of the platform is more 
the exception than the rule. And I would love to hear about how 
she sells her sponges on Amazon today in view of how much 
Chinese competition there is on the marketplace now.
    Chairwoman VELAZQUEZ. Okay. I will recognize the gentleman 
from Maine, Mr. Golden. We are running late here. Thank you.
    Mr. GOLDEN. Thank you, Madam Chair. And thank you, Mr. 
Hart, for weighing in on that. That is basically what I 
suspected, and I might be able to do it. Sometimes just because 
you can do something does not mean you should. And I think when 
consumers learn more and more about these things some of them 
may make different choices and it is okay. But even having the 
ability to have that information and make those choices I think 
is part of what we are talking about.
    I would just make a comment that as we have had 
conversations about government getting involved and whether or 
not people trust government to get involved and get it right, 
and absolutely I think sometimes it is totally fair to say 
government does not get it right. Sometimes they do get it 
right.
    One thing that I always hear from my constituents is a 
concern in particular about individual information. You know, 
we can talk about health care and other things. People's 
concerns about the government having control over 
individualized information. And when I think about some of the 
tech companies and some of these services, I think that the 
growing distrust out there in the general public is about this 
concern about information and who has control over it. Whether 
it is directly attached to them in their name or not, people 
are becoming aware that there is a lot of information flying 
around about them, and there is I think a growing distrust and 
a lot of concern. And people will I think over time look to 
government for reassurances that they have protections. And I 
think companies are going to have to come to grips with this 
and acknowledge that as they have growing power.
    As I listen to Ms. Cavaretta talk about some of the issues 
with her business, I hear her talking about the fact that there 
is, in addition to the relationship between her and the 
consumer, a growing kind of side market that consumers are not 
even aware of in terms of another level of revenue being 
introduced into the relationship. But even beyond that there is 
another almost side market which is the trafficking of people's 
data and information which also a lot of these companies are 
harvesting and using to go out and make money. And I think that 
consumers are aware of that and concerned about it as well. So 
I think there is a responsibility to do oversight. And at the 
end of the day, thinking about consumers, what we need to be 
able to talk about is transparency which is what Ms. Cavaretta 
and a lot of other people are talking about. These are really 
amazing things that you said they help a lot of small 
businesses. None of these small business owners would be using 
these platforms if that was not the case, but they also have 
the right to express their concerns and seek for options and to 
have a voice which is what the point of Congress is at the end 
of the day.
    I love this phone right here. A good partner of mine back 
home, Chamber of Commerce, Maine State Chamber of Commerce, I 
love to work with them. I love to work with their members. 
Lewiston Auburn Chamber of Commerce where I come from, I can go 
onto their website, do a quick scroll search, see who all of 
their members are, have a really helpful platform there where I 
can reach out and say, all right, I want to find a local 
brewery or something along those lines, get connected with that 
business. It is a great service and a great nonprofit. So just 
a little bit of helpful feedback.
    Mr. Ward, I would love to have more information. I would 
love to know who I am talking to. Who is sitting before me. I 
have checked out your website, clicked on your membership page. 
It just gave me the opportunity to sign up as a member. Perhaps 
I will consider that or have my family small business think 
about that. But I would just say we would love to know more 
about the tens of millions of small business owners that you do 
represent, and I think that is helpful information for members 
of Congress to know.
    And just with the remaining time I have, Ms. Cavaretta, I 
know that you were indicating you had more to say.
    Ms. CAVARETTA. Thank you very much, Representative Golden.
    You know, earlier we talked about misdirection and a little 
bit of the confusion that the consumer may have. And there are 
two sides to that. If you use that Google My Business Listing 
as a hotel and you can now go down to the view room's feature 
which a hotel like mine does not have access to, it drops you 
right to an OTA. So they are going to have access to that for 6 
months, and the consumer will be booking with them for 6 months 
before I will get that as the producer of the product at my 
family's business. And that is unusual to me to think that I 
cannot sell my own product on my own listing that is given to 
me by free by Google. And the consumer cannot tell the 
difference except for a little tiny word. And so both they are 
misled and I am misled withheld from being able to access a way 
to sell on that product and platform that way.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    We want to thank all of the witnesses for taking time to be 
here. I know that you all have a busy schedule. I really 
appreciate it.
    We have now heard from both large tech companies and small 
main street businesses about opportunities and challenges for 
entrepreneurs in the digital economy. As we continue to race 
toward innovation, we cannot forget the important role small 
firms play in our communities and our economy. Toy companies, 
beauty brands, and family-owned, small businesses across all 
sectors rely on the Internet and digital platforms to reach 
consumers and grow their businesses. However, when 
entrepreneurship continues to lag in the U.S., that means fewer 
jobs and less innovation. While we must ensure that there is 
protection for small businesses and consumers who enjoy the 
benefits of digital platforms, we must work diligently to 
develop policies that will also continue to foster innovative 
technology that has the power to continue to change our lives. 
I look forward to working with my colleagues on both sides of 
the aisle to come up with bipartisan solutions to these issues.
    I will ask unanimous consent that Members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 4:34 p.m., the committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
